<html>
<title> - EXAMINING THE DRUG THREAT ALONG THE SOUTHWEST BORDER</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
          EXAMINING THE DRUG THREAT ALONG THE SOUTHWEST BORDER

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 1999

                               __________

                           Serial No. 106-135

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
66-078 CC                   WASHINGTON : 2000




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
               Gilbert Macklin, Professional Staff Member
              Carson Nightwine, Professional Staff Member
                          Lisa Wandler, Clerk
           Cherri Branson, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 24, 1999...............................     1
Statement of:
    Fiano, Richard, Chief of Operations, Drug Enforcement 
      Administration, Department of Justice; Dorian Anderson, 
      Commander, Joint Task Force Six, Department of Defense; 
      Michael Pearson, Executive Associate for Field Operations, 
      Immigration and Naturalization Service, Department of 
      Justice, accompanied by Gus De La Vina, chief, U.S. Border 
      Patrol; and Samuel Banks, Deputy Commissioner, U.S. Customs 
      Service, Department of the Treasury........................    93
    McCaffrey, Barry R., Director, Office of National Drug 
      Control Policy.............................................     9
    Rodriguez, Raul, Lieutenant, Metro Task Force, Nogales, AZ; 
      Dennis Usrey, Director, Southwest Border High Intensity 
      Drug Trafficking Area, San Diego, CA; and Tony Castaneda, 
      chief of police, Eagle Pass, TX............................    54
Letters, statements, et cetera, submitted for the record by:
    Anderson, Dorian, Commander, Joint Task Force Six, Department 
      of Defense, prepared statement of..........................   111
    Banks, Samuel, Deputy Commissioner, U.S. Customs Service, 
      Department of the Treasury, prepared statement of..........   139
    Castaneda, Tony, chief of police, Eagle Pass, TX, prepared 
      statement of...............................................    84
    Fiano, Richard, Chief of Operations, Drug Enforcement 
      Administration, Department of Justice, prepared statement 
      of.........................................................    97
    McCaffrey, Barry R., Director, Office of National Drug 
      Control Policy, prepared statement of......................    17
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     5
    Pearson, Michael, Executive Associate for Field Operations, 
      Immigration and Naturalization Service, Department of 
      Justice, prepared statement of.............................   121
    Rodriguez, Raul, Lieutenant, Metro Task Force, Nogales, AZ, 
      prepared statement of......................................    56
    Usrey, Dennis, Director, Southwest Border High Intensity Drug 
      Trafficking Area, San Diego, CA, prepared statement of.....    68


          EXAMINING THE DRUG THREAT ALONG THE SOUTHWEST BORDER

                              ----------                              


                       FRIDAY, SEPTEMBER 24, 1999

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:37 a.m., in 
room 2247, Rayburn House Office Building, Hon. John Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Barr, Ros-Lehtinen, Souder, 
Hutchinson, Ose, Mink, and Kucinich.
    Also present from the House Border Caucus: Representatives 
Bilbray, Kolbe, and Reyes.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Gilbert Macklin and Carson Nightwine, professional 
staff members; Charley Diaz, congressional fellow; Lisa 
Wandler, clerk; Cherri Branson, minority counsel; and Earley 
Green, minority staff assistant.
    Mr. Mica. Good morning. I would like to call this meeting 
to order. This morning our Subcommittee on Criminal Justice, 
Drug Policy, and Human Resources is going to review some of the 
problems relating to our U.S. Southwest border, examining the 
threat among our various activities in regard to illegal 
narcotics control.
    I am going to open the subcommittee hearing this morning 
with an opening statement. We want to go ahead and get started 
because we will have votes this morning, and will be joined by 
various Members, and I will recognize them as they come in. But 
we do have the Director of our Office of National Drug Control 
Policy and other witnesses. I think we have three panels today 
that we want to hear from, and so we do want to proceed.
    This morning our subcommittee is holding this oversight 
hearing to examine our Federal policy to combat the flow of 
illegal drugs and illegal aliens across our Southwest border. 
The importance and difficulties of this mission are in fact 
enormous. The Southwest border is the most active border in the 
world. It is estimated that almost 4 million trucks, 100 
million cars, and a quarter billion persons cross the border 
annually through more than three dozen entry points.
    From a law enforcement perspective, control of the U.S. 
border in this area is becoming more and more elusive. Evidence 
of the problem mounts every day. We have been told that in 1998 
the U.S. Customs Service alone seized almost 32,000 pounds of 
cocaine, 850,000 pounds of marijuana, and 407 pounds of heroin 
along the Southwest border. Furthermore, the implementation of 
NAFTA has made it easier for drug traffickers and those 
entering the United States illegally to use the cover provided 
by legitimate cross-border commerce and normal traffic.
    It is estimated that up to 70 percent of the cocaine, 50 
percent of the marijuana, and more than 20 percent of the 
heroin in the United States now comes across the Southwest 
border. Eventually, these drugs end up in our cities, in our 
schools, businesses, and homes throughout the United States.
    A recent DEA report indicates, ``It is now common to find 
hundreds of traffickers from Mexico, many of them illegal 
aliens, established in communities like Boise, Des Moines, 
Omaha, Charlotte, and Kansas City, distributing multi-pound 
quantities of methamphetamine.''
    This border has also become the crossing point for an 
incredible amount of methamphetamines that we have found 
throughout the United States in various hearings that we have 
conducted of this subcommittee.
    The correlation between a loose border and human misery in 
this country is obvious. With the Southwest border now 
representing a major factor in the illegal trafficking of drugs 
into this country, and with 14,000 drug-related deaths 
occurring each year in the United States, our control of the 
Southwest border represents a significant national security 
threat.
    The statistics on drug use, particularly among our young 
people, is a constant worry in every American community for 
every parent, and for every Member of Congress. Heroin use is 
continuing to rise dramatically. Drug overdoses and deaths 
continue to plague our metropolitan areas, our suburbs, and our 
schools. Among our 12th graders, more than 50 percent of them 
have tried an illicit drug, and more than one in every four may 
be current users.
    The statistics, too, as I point out often on the House 
floor, relating to heroin production in Mexico, should be a 
warning sign to everyone. Once a small producer of heroin, 
Mexico now is the source of a much larger percentage of the 
heroin consumed in the United States. That heroin then travels 
across this border into our communities.
    As chairman of this subcommittee and a close observer for 
decades of our efforts to combat the scourge of drugs, I am 
particularly concerned about our law enforcement strategy and 
its implementation along our Southwest border. Congress has 
poured substantial moneys into Southwest border initiatives to 
combat drug trafficking and the entry of illegal aliens across 
that border.
    Today, it is critical that we examine the results of these 
efforts and review our plans for the future. Are we making 
progress, or are we losing ground? What more should we do? The 
entry of illegal aliens and the border crossings of drug 
traffickers must be stopped.
    Since 1993, the Immigration and Naturalization Service 
budget has increased from approximately $1.5 billion to nearly 
$4 billion. During the same period, INS staff grew from 
approximately 17,000 to more than 28,000 full-time employees, 
as of June 1999. Today, INS is the largest Federal law 
enforcement agency in the U.S. Government.
    Our subcommittee needs to know how this increase in funding 
and staffing has slowed illegal immigration and illegal border 
crossings, activities that result in more drugs, more crime, 
more negative economic and social impacts on both our States 
and our communities.
    The Border Patrol has grown from 4,000 to 8,000 agents in 5 
years. Where are these agents, and what are they doing? Are 
they in the right places and assigned to the right tasks?
    We have numerous agencies represented here today involved 
in our Southwest border efforts. How effectively do they 
communicate and share information? The administration has 
suggested that a strong bilateral approach to law enforcement 
with Mexico is necessary to achieve our mutual interests in 
controlling our border and protecting our citizens. What 
evidence is there that Mexico today is cooperating fully with 
our efforts? How many drug cartels responsible for cross-border 
trafficking have been dismantled? How many continue to operate?
    Today, we will hear more about what the administration is 
attempting to do, as well as the efforts of local law 
enforcement officials who enforce laws daily along the 
Southwest border.
    Still, we must face certain irrefutable facts: increasing 
and dramatic amounts of illegal narcotics are still coming 
through this border from Mexico. They are ending up on American 
streets. These drugs, and those who traffic in them, spread and 
finance gang violence, destroy young lives, and undermine our 
communities and the quality of life.
    We have with us today law enforcement representatives from 
local, regional, and Federal organizations who will tell us 
more about these growing challenges. I am also pleased today 
that we have with us a number of my colleagues in Congress, 
particularly those who have worked with the Congressional 
Border Caucus, who, are committed to addressing these 
challenges and threats. I welcome their continued efforts and 
support in this area, and I also welcome their participation in 
this hearing.
    Earlier this year, the ranking member and I led a 
delegation to the Southwest border of the United States. We did 
see in February, firsthand, some of the challenges that we 
face. I can assure you that we do have some major problems. 
Also, in a hearing and meetings that we conducted there, we 
also heard of disorganization, lack of cooperation, and a 
general disarray of our U.S. agency activities to bring our 
borders and, again, drug trafficking under control.
    We believe that we must move immediately to address these 
problems more effectively. This is not a partisan issue. This 
is not a Republican or Democrat issue. This is an issue that 
faces our Congress very squarely as a challenge we must meet 
together.
    I must say that I am pleased with the announcement 2 days 
ago just before this hearing that a major drug bust was 
conducted along the Southwest border. I believe this operation 
was called ``Operation Impunity.'' Still, it appears that such 
busts should be a matter of routine if we are to fulfill our 
border control responsibilities.
    I must ask our witnesses: Are we going to see more of these 
enforcement activities, and how soon? We strongly support these 
efforts, and we want them to continue.
    The protection of our citizens, the enforcement of our 
immigration laws and policies, and putting a halt to border 
trafficking in illegal narcotics, and the protection of our 
territorial sovereignty are among the issues that we will 
discuss today. I look forward to hearing from our witnesses, as 
we seek a better understanding of our border control efforts 
and the national priority that it must represent.
    I am pleased now to recognize our ranking member, the 
gentlelady from Hawaii, Mrs. Mink.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T6078.001
    
    [GRAPHIC] [TIFF OMITTED] T6078.002
    
    [GRAPHIC] [TIFF OMITTED] T6078.003
    
    Mrs. Mink. I thank the chairman for convening this hearing. 
As he indicated, several of us traveled the early part of this 
year on an extensive investigation and inquiry as to not only 
the trafficking of these drugs across the border, but the 
extent to which we are really exerting the maximum energies, 
expertise, and technology in interdicting the drugs that are 
coming across the border.
    And as we indicated at the time that we made the stopover 
at the border, we were going to continue to investigate this 
matter. So I welcome the convening of this hearing today, and I 
look forward to the testimony of the witnesses that have been 
called to testify. Thank you, Mr. Chairman.
    Mr. Mica. I am also pleased to recognize for any opening 
comment Mr. Reyes, the gentleman from El Paso, TX, also a 
member of the Armed Services and Veterans Affairs Committees, 
and active in these Southwest border issues. Mr. Reyes, you are 
recognized.
    Mr. Reyes. Thank you very much, Mr. Chairman. And I, too, 
would like to echo my colleague's appreciation for calling this 
hearing; and more than that, for calling attention to a very 
serious issue that affects not just border communities, but our 
whole country.
    I also want to commend you for the diversity of the 
witnesses this morning. And as you may or may not know, I spent 
26\1/2\ years, prior to coming to Congress, as a border patrol 
agent, the last 13 as a chief, both in south Texas and in El 
Paso. I am pleased to see a number of my former colleagues that 
are going to be offering testimony here this morning.
    So I think this is certainly a step in the right direction. 
There are a lot of things that we need to focus in on to help 
our various law enforcement agencies, among the local, the 
State, and the Federal level, to work together, to coordinate, 
and ultimately, to make the streets of America safer. So I 
appreciate this opportunity, Mr. Chairman.
    Mr. Mica. Thank you. And thank you again for joining us 
this morning.
    I am pleased now to turn to our panels. We have our first 
panel of one individual who is key to this entire effort, who 
probably has the most difficult responsibility of anyone in 
this administration for any assignment, and that is trying to 
bring together our national effort on drug control policy.
    He has done an outstanding job in trying to pull together 
various activities that are so crucial. Among them, of course, 
is trying to bring our agencies and the local governments, 
States, and other efforts together into some coherent effort to 
bring drug trafficking and the borders under control. So we are 
pleased to welcome the Director of the Office of National Drug 
Control Policy, General Barry McCaffrey, back to our 
subcommittee.
    General, as you know, this is an investigations and 
oversight subcommittee. If you would, please stand and be 
sworn.
    [Witness sworn.]
    Mr. Mica. Thank you, and welcome back, General. We are 
pleased to recognize you for your statements in regard to this 
issue before the subcommittee.

 STATEMENT OF BARRY R. McCAFFREY, DIRECTOR, OFFICE OF NATIONAL 
                      DRUG CONTROL POLICY

    General McCaffrey. Thank you, Mr. Chairman, Representative 
Mink and Congressman Silvestre Reyes who has been a tremendous 
leader and example and a source of wisdom on this issue.
    We have welcomed the chance to appear before Congress to 
discuss the Southwest border. It has generated a very useful 
review of ``Where are we?'' I think the subsequent panels will, 
obviously, flesh out our view. What I will offer, if I may, is 
a few short minutes of formal remarks: First of all, I would 
like to place in the record our written statement. Mr. Pancho 
Kinney from my office has pulled together throughout the 
administration, from law enforcement, from the State 
Department, from the Department of Defense, our best views on 
the current state of affairs. So I offer those.
    Mr. Mica. Without objection, the entire statement will be 
made part of the record.
    General McCaffrey. Also, Mr. Chairman, I have asked my 
staff--particularly Mr. Joe Peters, who is our Acting Director 
of State and Local Affairs--to go through our own 
organizational concepts and offer for you and your staff and 
your committee members the organizing documents that we have in 
play.
    First of all, you have in your packet the aspects of the 
``strategy'' which we submitted for congressional consideration 
in 1999 that relate to the Southwest border. That is what we 
are trying to do, what we wrote in the strategy.
    I have also extracted from the ``Performance Measures of 
Effectiveness'' how we say we are going to assess how well we 
are doing. And so these PMEs, which are really only a ``C-
minus'' state of execution right now, will be the organizing 
way in which I try and monitor the compliance of my Federal 
partners with this ``strategy.''
    You also have in your packet the ``threat assessment.'' As 
you know, Dennis Usrey, our Southwest border HIDTA Director, is 
here. This is local, State, and Federal law enforcement's 
viewpoint along the five Southwest border HIDTAs on the threat 
they face. We are going to be updating this this coming winter, 
but this is now the picture we see of where these criminal 
organizations are trying to penetrate the Southwest border.
    Two documents I think--first of all, they are a compliment 
to the Congress--come from my own Center for Technology 
Assessment. I have one document, ``Southwest Border Technology 
Interest Areas,'' and the other one, ``The Counter Drug 
Technology Transfer Program.''
    Congress has put a significant amount of money into this 
effort--I would argue, not yet enough--in which we are trying 
to give local and State law enforcement throughout the United 
States in this case, I will address the Southwest border some 
of the tools that they can use to more effectively protect the 
American people. I think it is a well regarded program, and one 
you may wish to question your later witnesses about.
    Two final documents, if I may: One is an attempt to capture 
in a snapshot form Mexican achievements in the counter-
narcotics arena. And we have just given you some insights into 
where we are now. Of course, we have a formal assessment we 
will have completed by February 2000, but this gives you an 
update from my last written input to your committee.
    The final document is ``Counter Drug Intelligence 
Architecture Review.'' The Congress asked me in the law to look 
at the connection between U.S. intelligence collection and 
support for law enforcement on the drug issue. This has been a 
brutally painful and extended debate inside the administration.
    There is a thicket of U.S. laws that we had to take into 
account as we went about this analysis. They are sort of 
obvious. You do not want to take your foreign intelligence 
collection system and jeopardize it by putting in play sources 
and methods in a Federal court hearing that might betray a 
program that cost us millions of dollars and years to develop. 
And conversely, you cannot afford to have your intelligence 
system in any way violating U.S. Federal protection of privacy 
of U.S. citizens.
    But we have completed this process. The Attorney General, 
the CIA Director, and I have agreed on the outcome. All other 
Federal actors took part in it. We are going to now try and set 
up a sensible, three-tier way of dealing with the intelligence 
support responsibility we have to local and State law 
enforcement in particular. And I would argue that currently it 
is completely inadequate. We have the best intelligence system 
in the world; but at the end of the day, it does not connect 
effectively to law enforcement leadership.
    Let me, if I may, Mr. Chairman, just take note of some of 
the witnesses who are in the room, as well as others who are 
listening. We welcome the presence today of Samuel Martinez, 
who is the executive committee member of the Hispanic-American 
Police Commanders Association. Second, Mr. Al Zapanta, 
President and CEO of the United States-Mexico Chamber of 
Commerce, who has been an enormous help to me throughout the 
last several years.
    And finally, Mr. Jim Polly, director of government affairs, 
the National District Attorneys Association.
    And I mention him in particular, because it is obvious to 
most of us who have studied this issue that we have a 
responsibility to have a balanced system approach to the 
border. And where we put resources in one area--for example, 
the Border Patrol--but we do not have a corresponding support 
mechanism to ensure that local prosecuting attorneys and local 
law enforcement have the resources they need, we will break the 
system. And so we very much welcome the involvement of the 
National Sheriffs Association, the National District Attorneys, 
and others.
    My staff also had an extended meeting yesterday, and I had 
an excellent session this morning, with representatives from 
all five of our Southwest border HIDTAs. I would argue this is 
one of the best programs that Congress has put together and 
then supported financially in the last several years.
    As you know, when we started this program in 1992, there 
were five total HIDTAs. Now there are 31. You have given me the 
resources we need to provide modest but effective support to 
these efforts. So this morning I had a meeting with the 
supervisor, David Torres, of the California Bureau of Narcotics 
Enforcement; Lieutenant Jim Burns, from the California 
Sheriff's Office, Imperial County; New Mexico HIDTA Sheriff 
John Lee, sheriff of Otero County, who I found enormously 
helpful in developing my own thinking. You have appearing as a 
witness Director Dennis Usrey, who possesses great experience. 
He is our director of the entire Southwest border HIDTA effort. 
And Lieutenant Raul Rodriguez, who will also be one of your 
witnesses, is a metro task force commander out of Nogales, AZ. 
He has done this his entire adult life, and knows what he is 
talking about when it comes to the support he expects to see.
    Finally, again, we are grateful for the National Guard 
Bureau support across the entire Southwest border, and Colonel 
John Mosby, director of NGB Counterdrug Programs, was also part 
of my preparation for this hearing.
    Let me, if I may, start again by taking into account the 
``National Drug Strategy.'' You have increased funding for the 
``strategy'' in 4 budget years, from $13.5 billion to $17.8 
billion. And a lot of that--thankfully--a 55 percent increase 
went into prevention and education. The heart of this 
``strategy,'' clearly, is goal No. 1: How do we minimize the 
number of American adolescents who are exposed to gateway drug-
taking behavior?
    You have given us a 26 percent increase in funding in 4 
years for goal No.'s 2 and 3, relating to dealing with the 6 
percent of us, the 13 million Americans, who are abusing drugs; 
and in particular, the 4 million of us who are chronically 
addicted.
    In today's hearing you are asking me to focus in on goal 
No. 4: How do we more effectively shield America's air, land, 
and sea frontiers from the drug threat? And clearly, the 
biggest threat to our defense against illegal narcotics still 
comes across this enormous Southwest border, the biggest open 
border on the face of the Earth.
    Now, let me give you the bottom line. Mr. Chairman, in 
1997, I reported to the President, ``Our current interdiction 
efforts almost completely failed to achieve our purpose of 
reducing the flow of cocaine, heroin, and methamphetamines 
across the border.'' I went on to argue, ``We need to shift 
from a manpower, physical inspection approach to one that is 
intelligence driven and that employs emerging technologies to 
conduct non-intrusive searches.''
    My fundamental assessment has not changed. I believe we are 
moving in the right direction. The resources you have given us 
are being gainfully employed. The manpower is beginning to take 
effect. But we have not yet achieved our purpose of 
significantly reducing the flow of cocaine, heroin, and 
methamphetamines across the border.
    As you mentioned, it remains a principal threat. Some 55 
percent of the drugs in the United States pass through the 
Central American-Mexico corridor, and then across the United 
States, generally speaking, by land, although some of it by 
air.
    Clearly, we have an enormous problem, and I have a little 
chart that gives you a snapshot of it. We have a huge effort. 
This is a $2 billion program, 11,000 Federal officers. It is 
largely an open border; 1 percent of it is fenced. Much of it 
is water that is easily crossed. A lot of it is remote, rugged 
land area which is barely marked.
    There are innumerable places where you can drive unimpeded 
across that border with four-wheel-drive vehicles. And we are 
facing people who have been smuggling across that border 
literally for generations, and who know the terrain and are 
willing to employ violence to achieve their purpose. So that is 
the challenge as we look at it.
    We also note, favorably, the 100 million Mexicans to our 
south, are our second-largest trading partner on the face of 
the Earth. So we are trying to sort out criminal activity from 
among 278 million people crossing that border a year, 86 
million cars, 4 million trucks and rail cars. That is the 
challenge that is summarized on this chart.
    Now, how are we doing? I would say, if you look back over 
the last 4 years in which I have been studying the issue: Not 
very well. When you look at inspection of trucks and rail cars, 
which is essentially where a lot of this illegal cargo is 
concealed, if you try and get at it with physical searches, 
with downloading 18-wheelers of frozen food cargo, of drilling 
holes in the wall, of inspecting it manually, of looking for 
other intelligence tips and then trying to pull aside the right 
vehicle out of these millions of POVs and rail cars: It simply 
will not work. In 1997, six truck or rail cars found with 
cocaine; in 1996, 16. There is just no reason why brute force 
will solve the problem.
    We do believe that the technology--and I am going to talk 
about this--that you have deployed to the border will change 
the shape of the smuggling envelope. So I think that and the 
intelligence program, which are moving ahead, are going to make 
this a quite different viewpoint from the criminal organization 
effective in the coming years.
    Now, if you will, let me also note that Congress recognized 
the problem 2 years ago. You instructed me in the 1999 Omnises 
Appropriations Act to study the problem, along with the 
Secretary of the Treasury and the Attorney General; a review to 
include consideration of all Federal agencies' coordination 
with State and local law enforcement agencies, and to report 
back to you. We are going to comply with that law.
    I have tasked the Interdiction Committee, which is chaired 
by Mr. Ray Kelly, the Customs Director--who I would argue is 
one of the best cops we have had in this country--to put 
together a comprehensive assessment of counterdrug efforts 
along the Southwest border, and present for inter-agency 
consideration an operational concept, a force structure, and a 
coordination mechanism that will address the issue.
    Let me also tell you that we are aware that you have given 
us significantly enhanced resources. Just taking snapshots of 
what has happened in the last 4 years: You have upped the 
Customs budget for Southwest border programs by 72 percent. You 
have increased DEA special agents that we have been able to 
assign down there by a third. You have increased INS agents 
since fiscal year 1993 by more than 100 percent. We have 
doubled. The DOD drug control budget for the Southwest border 
has gone up 53 percent. The number of U.S. attorneys has gone 
up by 80 percent. So the manpower is starting to come online to 
get a handle on this problem.
    I would argue, even more importantly, you have given us 
non-intrusive inspection technologies. And a lot of this 
material is new. It has only been down there in the last year 
or two. Until it is at all 39 border crossings, we are not 
going to have presented a wall of resistance to drug smuggling. 
But you do have eight fixed truck x-ray sites, and two mobile 
truck sites, and one fixed gamma-ray inspection system now 
deployed.
    There are other efforts that we are now undergoing. And by 
the way, let me, if I may, quickly put in context that although 
Mexico is where the drugs, 55 percent of them, we say cross our 
frontier, that is not where a lot of it starts. If you want to 
find the center of gravity of the drug problem, it is Colombia, 
as you so well brought out in the last hearing we had here.
    Eighty percent of the cocaine that enters America 
originated in, or transited through, Colombia. Probably, 70 
percent or so of the heroin that we seized--and I underscore 
``seized''--originated in Colombia. And a good bit of the rest 
of it in Mexico, especially in the western half of the United 
States.
    I underscore seizures because I think the percentage is 
that high because of good police work by the DEA and Customs in 
particular, and the Coast Guard, because it represents that 
higher proportion of the total heroin use. But they have 
focused on it.
    There is the picture that evolves. The Defense Intelligence 
Agency does the cocaine flow analysis for us. I believe we now 
know what we are talking about, as we watch the movement of 
cocaine and heroin from the production area, through the 
transit area, into the arrival area. That picture is updated 
formally every 6 months.
    Here is where we seized the drugs, and we get a lot of it. 
We should never disregard the impact of moving out of public 
consumption, literally, hundreds of tons of drugs: 
methamphetamines, heroin, marijuana, et cetera. Here is where 
it comes in. The Southwest border, as you are looking at it, 
accounts for half the drug seizures we make with Federal 
authorities.
    A huge problem: What is the most dangerous drug problem in 
America? It is an American adolescent, probably in the 7th 
grade through about the 10th grade, who is involved in heavy 
use of marijuana, alcohol, and other drugs, inhalants, heroin, 
et cetera. We should not disregard the enormous destructive 
impact of significant use rates of cannabinoids in our society, 
and it is coming across the Southwest border. Some of it does 
not originate there. It comes out of Colombia or elsewhere; but 
it is crossing the border in record amounts. When you look at 
the seizure rates, it is almost unbelievable.
    Methamphetamines: Arguably, the most destructive drug that 
we have ever seen in America. It started as a sort of a niche 
market, West Coast biker drug. It is now all across the 
country. It is a huge problem, obviously, in the Western 
States. It is now probably the major drug problem in the 
central part of America and it has hit the East Coast. It is 
all over Georgia and other places.
    It is tremendously addictive and destructive of human 
development. It creates people who are extremely dangerous, in 
particular to law enforcement authorities. And unfortunately, 
it can be manufactured easily. The recipe is on the Internet. 
The compounds are available in many pharmaceutical houses, and 
it is being manufactured all over the United States.
    Literally, 2,000-some-odd cooking operations were taken 
down in the last 18 months. Now, a lot of these are ``Beavis 
and Butthead labs'': a few grams, people cooking for their own 
use, for their friends. But it is an enormously destructive 
drug, not only to the individual using it, but to the family 
that is associated with its use or cooking, and to law 
enforcement authorities, and to the ecology.
    And there are two major methamphetamine producing locations 
on the face of the Earth. One is Mexico; the other is 
California. It is also, of course, throughout the Midwest. And 
now it is showing up in Georgia and other places. That is where 
the seizures are.
    Then heroin, finally: Although seizures are constant, that 
is more a reflection of the cunning of these criminal 
organizations, with this enormously valuable cargo. Heroin 
availability in the United States has never been greater. 
Purity has never been higher. The price is low, and American 
adolescents are unaware of the addictive and destructive 
potential of heroin, even when snorted or ingested.
    A lot of our youngsters think that if you are not injecting 
it, it could not be all that dangerous--And correspondingly, we 
have seen in your district among others, an enormous death rate 
among American kids from this very potent form of heroin.
    Finally, let me mention that we do have a series of 
initiatives that we are now working in the inter-agency 
process. There has been some first-rate cooperation, 
particularly Donnie Marshall and DEA, the INS team along the 
border, Ray Kelly in Customs, and others, and all the law 
enforcement agencies involved.
    The HIDTA program, which Dennis Usrey will talk to you 
about, has been a great payoff. I would make one point, if I 
may, Mr. Chairman. These five Southwest border HIDTAs tend to 
be in areas with extremely low population density. A lot of 
Americans do not live there. So a local sheriff's department or 
police department has modest resources at their disposal.
    As we find a major threat to the entire 270 million of us 
developing along the border, I would argue we need to provide 
Federal resources to back up these local and State authorities, 
because they are acting on behalf of all of us as a law 
enforcement shield on that border. And they are simply being 
overwhelmed.
    When I say that, I do not mean just the sheriff's 
department. I also mean the prosecutor, the local detention 
facilities, et cetera. Our prosecutorial guidelines now, with 
this level of drug smuggling, have gone up to the point where, 
literally, at 500 pounds of marijuana and below this is a 
``Turn it over to State and local authorities'' situation. We 
are going to have to provide them meaningful levels of support. 
I am going to ask Congress to seriously consider substantial 
increases in funding for the five Southwest border HIDTAs.
    Bullet No. 2, the Border Coordination Initiative, you will 
learn more about this by talking to Treasury and Justice 
representatives. The BCI initiative is an attempt to get 23 
Federal agencies and four major departments of government to 
operate more coherently at the border. It took two of those 
departments, Treasury and Justice, and gave them coequal 
coordinators and a plan to manage their affairs at the 24 ports 
of entry.
    I applaud the initiative. I think it is going to be 
extremely helpful. But I must be unequivocal in saying it is an 
inadequate approach to providing a coherent Federal management 
response, in my judgment, either at the POEs, in the four 
border States, or across the border in general.
    One of the major failures is it still does not give local 
and State law enforcement a single point of contact in their 
sector that they can go to and expect to get intelligence 
support and operational responses. And I think, if you talk to 
local law enforcement, which I do up and down that border 
continuously, they feel our efforts in support of their very 
courageous defense of their own counties is inadequate.
    Now, that even includes things like intelligence. We have 
the best intelligence in the world now coming online at EPIC, 
the El Paso Intelligence Center. But it does not connect 
reliably to sheriffs and police chiefs along that 2,000-mile 
border.
    No. 3, the Port and Border Security Initiative: That is up, 
and moving forward. I think it is going to have a big payoff. 
The bottom line is, use technology cued into intelligence, and 
you will find the drugs. There are some spectacular successes, 
particularly at the Miami port of entry; New York; Eagle Pass, 
TX; El Paso--some really excellent work going on.
    We have talked about harnessing technology. I think 
Congress is giving us the tools to do our job now.
    Drug control cooperation with Mexico: It is going to be a 
challenge; there is no question. I have included in your packet 
the ``U.S.-Mexico Drug Cooperation Strategy.'' We are working 
closely with Attorney General Madrazo, with Minister Cervantes. 
There are extraditions taking place. There have been nine this 
year for murder, drug related crimes, et cetera. They are 
trying to create a new counterdrug police agency. They have put 
their own efforts into a vetting system, so that their agents 
are polygraphed, drug tested, and financially over-watched.
    But having said that, it is clear to all of us that this is 
a generational effort for Mexico to create law enforcement 
agencies and a criminal justice system that is responsive to 
their own needs. They are doing a lot better, when you talk to 
these law enforcement officers, in cooperating with U.S. 
authorities on murder, or cross-border car theft. But when it 
comes to drugs, the money and violence associated with drugs is 
so intense that it provides a special limitation on our ability 
to work across that border.
    The counterdrug architecture, bullet No. 6, refers to 
intelligence coordination inside U.S. ranks. I think we are 
moving in the right direction. We have some more work to do, 
but I think now, between Director Tenent, Attorney General 
Reno, and I, we do have a scheme to move forward and be more 
responsive to our law enforcement counterparts.
    Finally, I think we ought to expect a lot out of public-
private partnership. At the end of the day, we encourage the 
cross-border economic traffic. So you can have trusted 
travelers, trusted corporations, who invest in their own 
counterdrug programs at the factory site: that the inspection 
process is understood to take into account not just crossing 
the border, but from the time that truck is loaded in Mexico, 
all the way to its delivery point; and that you have technology 
now that will allow these vehicles to cross the border with 
machine-read license plates, with registered drivers; and where 
the corporation puts at risk this very good economic 
opportunity if they are caught not searching out and preventing 
drug smuggling. I think we are going to see a lot come out of 
this in the future, where business will be asked to pay for the 
enhanced economic cross-border activity.
    Finally, this is just a summary of some of the inspection 
systems that are going into place. I think they are beginning 
to pay off. But again, what the drug criminal organizations are 
doing is reading the battlefield with enormous effectiveness. 
When we do something that does not work, they ignore us. When 
we do something that does work, they adapt. And what they are 
doing now is going around the systems we are putting into 
place. That does not mean they are not working; they are. But 
it does mean that there will have to be a seamless web, not 
based on raw manpower, but on intelligence and technology up 
and down this border.
    There are some holes in this entire system. We still, in my 
view, have inadequate support to some sub-elements of the 
system. One of them is the U.S. Marshals Service. They are 
handling enormously increased requirements now based on drug 
smuggling, and I do not believe they have the manpower or the 
Federal transfer centers to support this Southwest border 
effort. We are going to have to think very carefully about 
that.
    Mr. Chairman, thank you very much for the opportunity to 
appear before your committee, and I look forward to answering 
your questions.
    [The prepared statement of Mr. McCaffrey follows:]
    [GRAPHIC] [TIFF OMITTED] T6078.004
    
    [GRAPHIC] [TIFF OMITTED] T6078.005
    
    [GRAPHIC] [TIFF OMITTED] T6078.006
    
    [GRAPHIC] [TIFF OMITTED] T6078.007
    
    [GRAPHIC] [TIFF OMITTED] T6078.008
    
    [GRAPHIC] [TIFF OMITTED] T6078.009
    
    [GRAPHIC] [TIFF OMITTED] T6078.010
    
    [GRAPHIC] [TIFF OMITTED] T6078.011
    
    [GRAPHIC] [TIFF OMITTED] T6078.012
    
    [GRAPHIC] [TIFF OMITTED] T6078.013
    
    [GRAPHIC] [TIFF OMITTED] T6078.014
    
    [GRAPHIC] [TIFF OMITTED] T6078.015
    
    [GRAPHIC] [TIFF OMITTED] T6078.016
    
    [GRAPHIC] [TIFF OMITTED] T6078.017
    
    [GRAPHIC] [TIFF OMITTED] T6078.018
    
    [GRAPHIC] [TIFF OMITTED] T6078.019
    
    Mr. Mica. Thank you, General, for your statement and 
testimony. A couple of questions, if I may. First of all, one 
of the points that you raised was that there was not a point of 
contact for the local officials, local and State officials. We 
have many Federal agencies involved in this effort, and we do 
have the problem of the lack of someone, say, in charge. Who 
would you recommend be in charge? If not you, then who? How 
would you structure this?
    When we were at the Southwest border, we heard problems of 
lack of communication, lack of coordination, and complaints 
about inter-agency turf wars. It seemed like there was no one 
in charge. You said that there is no point of contact for local 
officials to go. It appears that the Federal agencies are in 
disarray, with a lack of coordination, and each operating 
independently. How could we better structure this to put 
somebody in charge of these efforts?
    Also, we have this HIDTA structure. We have a number of 
HIDTAs along there. Should it be based around those efforts? 
But again, somebody in charge, or somebody coordinating this 
massive effort: Is it possible, and how should we do that?
    General McCaffrey. Mr. Chairman, one of the interesting 
aspects, when you start looking at the problem, there is 
something floating around called the ``Burkhalter Report, 
1988,'' done for Vice President George Bush. It is not a bad 
snapshot of the problems. We are working on the same problems 
today in 1999.
    I do not think there is any particular magic to this. And 
let me again reiterate, just in the 4-years I have been 
privileged to watch this process, we have more resources, more 
technology, better intelligence, better coordination among 
Federal law enforcement, and better coordination across that 
border. I would argue it is still inadequate.
    And although I think it is a weak analogy, I would almost 
suggest, we went a couple of hundred years in the military 
service of the United States where no one had the authority to 
coordinate the Army, Navy, Air Force, and Marines, until 
Congress passed a law and told us to do it. So I would argue 
for----
    Mr. Mica. So are you recommending--And again, we are 
looking for solutions. Maybe we need to pass a law that says 
there must be a joint approach that someone is in charge. Would 
you do that on a unified basis across the board, or in 
divisions, or a combination, so that there is some structure?
    The problem is, again, you have a half-dozen, maybe a 
dozen, Federal agencies, local efforts, National Guard: again, 
just multiple partners and participants, but nobody really in 
charge. Plus, your focus has been to improve technology and 
intelligence. We are doing both, and I think we are making some 
progress in that area. But we have a mass of people that we 
have sent to this border, and they seem to be all going off in 
their own direction--and again, lack of some structure.
    Again, any specific recommendation as to how you tier this 
structure and organize it?
    General McCaffrey. I would like to offer a couple of 
comments. First of all, what I would not try and do is start 
over and create a single border agency for the U.S. Government. 
It cannot be done. We would waste years fighting with each 
other. So I would recognize that there will be, and should be, 
separate Customs Service, INS, DEA, et cetera, with their own 
budgets, manpower, unions, et cetera.
    The second thing is, I would not assert that we need 
operational direction at the border; that is, somebody in 
command of the DEA-Customs investigations, et cetera. Law 
enforcement and prosecution, particularly through the HIDTA, do 
extremely well pulling together complementary investigations.
    I do believe the problem is that there is no coordinator 
for any given POE or any sector of the border for Federal 
authorities. I still go to a border crossing, and I get a 
brilliant briefing by the port chiefs for the Customs Service, 
the INS, the Department of Agriculture, and anyone else who is 
there, the National Guard Bureau, et cetera. There ought to be 
a coordinator. In my view, that should be the U.S. Customs 
Service. Because primarily, what we have at the POE are 
millions of people and vehicles with the economic vitality of 
these two huge nations at stake.
    In sectors of the border, it seems to many of us that the 
Border Patrol is the obvious logical actor to coordinate 
Federal law enforcement efforts, and to do so in cooperation 
with Mexican authorities. We have thousands of National Guard 
troops out there, engineers, military intelligence, supporting 
the effort. The Department of Interior, Transportation, and 
other Federal agencies have huge responsibilities. Somebody has 
to coordinate it.
    And then finally, I have argued that El Paso already has 
Joint Task Force Six. You are going to have Brigadier General 
Dorian Anderson, one of our better soldiers we have on active 
duty. That is where we coordinate military support. We have 
EPIC there, the intelligence center. We have ``Operation 
Alliance'' there, where we try and broker law enforcement 
demands on the feds. A lot of the activity is there. I think 
there ought to be a border coordinator for counterdrug 
activities.
    Mr. Mica. Thank you. One final question. You have 
mentioned--well, we talked about cooperation among our agencies 
and local officials and that structure. One of the other 
elements of this has been--and the Administration has put an 
emphasis on it--cooperation among and with Mexican officials 
along the border.
    I am really concerned, dismayed, at recent reports I have 
had as recently as the last week, for example, along the Baja 
Peninsula. It appears that that State or province has basically 
been taken over by narcotraffickers, that the situation is 
basically out of control as far as corruption. There have been 
hundreds of deaths. And the corruption runs from the lowest 
level to the highest level.
    I am also concerned even with reports we have had in the 
last week. This Mario Mossieau, who committed suicide, he 
implicated, I guess, in his suicide note that even the 
Presidency of Mexico may be compromised. We have had testimony 
from a Customs official to that effect in a prior hearing that 
we had.
    Are we able to deal with these folks at all in some efforts 
to make some meaningful cooperation? Or are we dealing with the 
drug dealers and narcoterrorists at every level with Mexico 
today?
    General McCaffrey. Mr. Chairman, first of all, I think what 
we ought to do is watch what people do, not what they say. What 
we are trying to do is achieve the best possible defense of the 
American people by working with Mexican actors who we think are 
producing results for us.
    I think it is unarguable that when we deal with the Mexican 
Attorney General, with Mr. Mario Herran, who is the head of 
their counterdrug law enforcement effort, when we deal with the 
Minister of Defense and others, they are cooperating. There are 
actors who we can talk to and share intelligence with, and we 
are doing just that.
    Concerning the Mexicans, clearly, their people are getting 
murdered and kidnapped and brutally tortured. They are fighting 
back. When we pulled ``Operation Impunity''--one brilliant 
piece of work by Customs, DEA, and others, with the FBI 
involved in it--we did work with Mexican authorities during 
that investigation. As you know, they seized more than 12 tons 
of cocaine, $20 million, tons of marijuana, and arrested almost 
100 people. And we were able to keep that one reasonably close 
hold.
    We have watched the Mexican Navy arrest at sea with two 
gigantic cocaine seizures. That is a fact. They have done that. 
We have watched the Mexican Army and police on their southern 
border, which is where they are putting their x-ray machines, 
down on their Guatemalan-Belize border. They have bought a 
couple of hundred small boats, and they are trying to seal off 
from the south entrance to Mexico.
    I think they are serious about it. Now, at the same time, 
it has never been more dangerous inside Mexico or on that 
border for United States law enforcement and Mexican law 
enforcement. One of the officers this morning told me the 
Mexican smugglers now get murdered if they do not get through. 
So these people and their families are at risk, they are armed, 
and they are dangerous. They are dangerous to the Beta Group in 
the south on the Mexican side of the border, and they are 
dangerous to our law enforcement officers. And we are losing 
local and Federal law enforcement officers.
    So I think it is a very challenging situation. But, yes, 
the Mexicans are working with us; and, yes, we are achieving 
results from it.
    Mr. Mica. Thank you.
    Mrs. Mink.
    Mrs. Mink. Thank you, Mr. Chairman. The issue is really 
quite mind-boggling. We have a dizzying array of individuals, 
agencies, local, State, Federal, involved in this whole matter 
of trying to bring under control the invasion of these drugs 
that are coming across our border.
    And if we read back or read through the transcript of your 
testimony this morning, I think we would pick out quite a 
number of places where you indicated that we were not doing 
enough, that we could do better, that we looked forward to 
better coordination or better efforts on the part of the 
Federal Government to look at this as a truly national problem, 
and not to leave the local and State officials dry in terms of 
intelligence and other kinds of technical assistance which 
might make their work more effective.
    So having said all of that, and understanding that the 
problem is very complicated, I am somewhat dismayed that you do 
not recommend that we institute some one agency or individual 
in charge of the Southwest border. I do not believe, frankly, 
that by having task forces, meetings, joint ventures and more 
coordination, or even one chief coordinator, you are going to 
find a solution to all of these areas which you have enumerated 
today as being areas of major deficits on the part of the 
national government.
    So I would like you to address that point. How could a 
coordinator do any more than what is already being done in 
joint task forces and HIDTAs and all these other operations 
that we have put into effect, from whom we have heard; each one 
indicating the maximum efforts that they are putting and trying 
to achieve their potential? And yet, when you as the person in 
charge of all of this overview recite to us these major 
deficits, it seems to me it is time for us to consider some 
very bold and much more decisive command.
    This is an invasion, and I regard it that way. And I do not 
think that we can say coordination is the answer.
    General McCaffrey. I think I basically agree with your 
sentiments. I think that in 1997 I went to the President and 
laid out the problem and gave him the general shape of how we 
ought to move ahead, and he agreed at that point, and so did 
the White House Chief of Staff. What we are trying to do now is 
struggle with 23 Federal agencies, and in particular four major 
departments of government, to come to a common viewpoint.
    These are professional people, by the way. This is not a 
lack of intelligence or responsiveness. It is not narrow-minded 
behavior. These are professionals who are very concerned about 
some very different institutional missions. The Border Patrol 
is not like the U.S. Marshals Service, which is not like the 
DEA mission.
    Mrs. Mink. Yes, but we cannot allow those bureaucratic 
definitions which we have to deal with----
    General McCaffrey. Yes.
    Mrs. Mink [continuing]. To come to a point where it 
interferes, interrupts, creates a barrier from effective 
interdiction of all of these things coming across.
    General McCaffrey. Right. I think much of this can be 
solved.
    Mrs. Mink. It seems to me like somebody has to be in charge 
to solve those problems.
    General McCaffrey. You are certainly talking to a person 
whose background----
    Mrs. Mink. Well, I was going to suggest that you start 
this, in terms of how the military might approach this----
    General McCaffrey. Yes.
    Mrs. Mink [continuing]. From an overall command post.
    General McCaffrey. I think a significant move forward would 
be if there was a Federal coordinator from the same department 
of government.
    Mrs. Mink. We have the authority to make a decision.
    General McCaffrey. Well----
    Mrs. Mink. I do not mean to load on you today, General.
    General McCaffrey. Yes.
    Mrs. Mink. But I just feel so frustrated----
    General McCaffrey. Yes.
    Mrs. Mink [continuing]. In getting to these hearings, and 
hearing the people discuss the issues, and this myriad of 
complexities and different agencies, different 
responsibilities. And it is agonizing to know that we do not 
have that ability to put it all together so that somebody can 
help that small sheriff----
    General McCaffrey. Yes.
    Mrs. Mink [continuing]. In a small town get the 
intelligence that he needs, which is available, in order to do 
a better job.
    General McCaffrey. It goes beyond that. Basically, if you 
are a sheriff in a county or a police chief, or a Mexican law 
enforcement figure, who is it you are supposed to go to to 
begin the process of coordination? And since we have 
jurisdictions that are not congruent--the DEA, the FBI, the 
Border Patrol, the Customs Service do not have the same 
jurisdictions.
    Mrs. Mink. Well, I could not even tell you what it is. If 
somebody came to me, I would have to call up four people.
    General McCaffrey. Right. I share your concern. I think 
coordination is required. I am not sure we can ever get to 
command; nor do I believe it is required. But I think we do 
need to move forward.
    Mrs. Mink. Thank you, Mr. Chairman.
    Mr. Mica. Mr. Hutchinson.
    Mr. Hutchinson. General, good morning to you. Just 
following up a little bit, you mentioned the Burkhalter Report 
of 1988. What did it say in reference to coordination among our 
Federal agencies?
    General McCaffrey. Let me, if I can, extract from it what 
they recommended, because times have moved on and some of this 
is not entirely appropriate. The problem is, I would argue, 
they rented a very bright admiral and had him study the issue. 
He captured some findings that are remarkably similar to what I 
am now telling you. And 10 years later, we still have not 
overcome the coordination shortfalls that he identified in 
1988.
    Mr. Hutchinson. What you are saying is, we have made 
enormous strides in the coordination--at least, that is my 
impression of law enforcement as a whole--through the HIDTAs, 
and through the drug task forces. There is more coordination 
between the agencies, but there is not any central command 
post.
    General McCaffrey. Right.
    Mr. Hutchinson. Is that correct?
    General McCaffrey. Neither at the POEs, the ports of entry; 
nor in the sector; nor in the Southwest border.
    Mr. Hutchinson. How much authority do you have?
    General McCaffrey. Considerable: For budgets, for policy. 
We have managed to pull together intelligence architecture. We 
have managed to pull together a coherent technology initiative. 
So a lot of that is moving in the right direction.
    Mr. Hutchinson. On the budget side.
    General McCaffrey. I have to certify everybody's agency 
budgets, and if they are not found adequate I can decertify 
them and order them to reconsider. I have to certify the 
department budgets.
    Mr. Hutchinson. Do you have authority to certify increases? 
Do you have authority to recommend cuts?
    General McCaffrey. Indeed.
    Mr. Hutchinson. I mean, that should be a lot of leverage, I 
would think.
    General McCaffrey. I think it is. That is why I think the 
budgets and the technology and the manpower are moving in the 
right direction. There are more people, more x-ray machines. 
Coordination architecture is better. I do not want to miss 
that, and that is why I read into the record huge increases in 
U.S. attorneys present on the border, 80 percent; 72 percent 
increase in Customs manpower.
    We are aware of an appreciative congressional response to 
our initiatives for 5 years running now. But I have also tried 
to outline for you the shortfalls. The shortfall is, there is 
still no coordinator at El Paso, TX, for Federal counterdrug 
efforts.
    Mr. Hutchinson. I think your point is right on target. I 
think there is agreement that there is a need there. But you 
indicated that we waste too much time trying to combine or put 
someone in charge. You pulled back from really having a 
coordinator with power and punch. You are saying a coordinator 
of information, and that is pretty weak. So how strong do you 
want to go in this regard?
    And you mentioned Customs. Would your office not be in a 
better position to provide coordination than Customs, for 
example?
    General McCaffrey. I think everything works better from the 
bottom-up than the top-down. So the thing I am most worried 
about is having a coordinator at each POE. I would rather have 
that than anything else.
    Then the second thing I would rather have is somebody in 
the States of New Mexico, California, et cetera, who is the 
Federal coordinator for counterdrug efforts on the Southwest 
border in that State.
    Finally, I would like to see somebody parked in El Paso, 
using the manpower of EPIC, Alliance, and Joint Task Force Six, 
who is charged only with watching the Southwest border and 
coordinating our counterdrug efforts.
    I want to be a policy guy; not an operational person. If 
Congress wants to change the law, I have spent most of my life 
in charge of things; I am a policy, budget, and spokesperson 
now. It will not happen here in Washington.
    Mr. Hutchinson. To accomplish that coordinated office, 
would it take legislative effort, or can it be handled at the 
administrative level?
    General McCaffrey. I have been trying to achieve it through 
dialog and logic.
    Mr. Hutchinson. OK. I yield back. I thank the General for 
his comments.
    Mr. Mica. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. I want to first say 
that I agree with the General, in terms of the necessity to 
have a coordinator. But let me, perhaps, put it in perspective 
of the context of how you are approaching a coordinator, as my 
colleague from Arkansas said, of information, and why not 
additional authority. Let me first give you some personal 
experience and personal frustration, and why I think it is very 
important that we do have a coordinator has some authority and 
decisionmaking capability between the Federal agencies.
    One of the big frustrations, even today, as a Member of 
Congress, is the fact that INS, even though we fund them for 
technology, can take that money and use it for something else. 
We know that Border Patrol, for example, is going to be falling 
short by some 650 agents in hiring the required 1,000 agents 
this year.
    In addition to that, there are gaping holes on the border 
where they do not have the elementary type sensors that have 
been around since I served in Vietnam some 30 years ago.
    So part of the issue is in following three examples: The 
ability of the border coordinator, border director, however we 
want to phrase it, to be able to dictate to INS that money that 
is to be spent for manpower or for technology be done 
accordingly.
    Part of the directive should be that if we have identified 
a shortfall with the U.S. Marshals who are charged with 
transporting our prisoners and making sure they show up for 
trials, et cetera, and if there is a shortfall, this 
coordinator should be able to have some influence over 
additional marshals, relocation of marshals, those kinds of 
things, to the border area.
    The last thing is a tremendous shortfall in U.S. attorneys 
and, by extension, Federal judges; although we get into another 
arena when we talk about confirmation of Federal judges. But 
the issue from my perspective--and I am talking from about 13 
years frustration as a chief patrol agent--is we have a 
situation where border law enforcement agencies work together, 
not by design, but by the capability of individual chiefs, 
directors, special agents and all, to get along and to say, 
``Look, our resources are finite, so we do more if we work 
together.'' This is well and good, if everybody is on the same 
page; but oftentimes, they are not.
    In regards to the issue of the port of entry, General, I 
think you are on target. We need one agency in charge of each 
port of entry, so they can make staffing decisions, so they can 
make decisions in terms of strategies and things along those 
lines.
    I appreciate your position, because in my conversations 
with members of the administration, I know that the 
administration is opposed to your idea of a coordinator.
    Mr. Chairman, that is something that we ought to seriously 
take a look at from a congressional perspective. Because if we 
leave it to the different Cabinet-level individuals, there is a 
possibility of turf battles right on the front lines of the war 
on drugs, and I have seen those same kinds of turf battles up 
here in the political and in the bureaucratic arena.
    So I would hope that we, as a Congress, take a look at 
this. If we need to change the law, let us change the law. 
Because in the long term, every year the issue of certification 
comes up. We tend to project our frustrations, in the case of 
the Southwest border, onto Mexico. I, for one, want to commend 
General McCaffrey for every year standing up and saying, 
``Look, the Mexicans are paying a tremendous toll for their 
role in the war on drugs, and we ought to be looking at 
ourselves.'' This is an opportunity for us to look at 
ourselves, and to do something meaningful.
    The last thing I would like to ask the General by way of a 
question is, General, when we came up in 1992 with the HIDTAs, 
and we had five original HIDTAs, they were a priority in order 
to combat narcotics. From then to now, we have gone from 5 to 
31, as you mentioned yourself.
    In my mind, one of the frustrations is that if everything 
is a priority, then nothing is a priority. They are no longer 
focusing in on areas like El Paso and the Southwest border in 
terms of funds and the ability for agencies and your office to 
provide the extra resources.
    I do not have anything against other parts of the country 
being able to participate, but I think their participation is 
at the detriment of those areas that are on the front lines. I 
would like your comment on HIDTAs going from 5 to 31 today, and 
perhaps 40 or 50 next Congress.
    General McCaffrey. Mr. Congressman, I think your comments 
are basically on the money. If I may, on the subject of 
coordination versus being in charge, I think we ought to go for 
what we can realistically achieve. I see no possibility of 
getting the various committees of Congress, the various 
departments of Federal law enforcement, to agree to place a 
person in operational control of multiple Federal agencies. I 
do not think it is achievable.
    And by the way, from the start, the President of the United 
States and the White House Chief of Staff have been supportive 
of me trying to organize, as best I can, agreement among 
competing interests. I think where we might get is to have a 
coordinator, the Customs Service, at the POEs, and a 
coordinator, Border Patrol, in sectors and States. So I would 
like to move in that direction. But if you think more is 
achievable, I would listen very carefully to your own 
viewpoints.
    Mr. Reyes. Well, General, if I could just interrupt you for 
a moment. In 1993, I was told that we could never control the 
border, when we put ``Operation Hold the Line'' and redefined 
the strategy from one of chaos and apprehension to one of 
prevention.
    General McCaffrey. I agree. If we put the manpower, the 
technology, the intelligence, and fencing in place, we can 
regain law and order control of our border, working in 
cooperation with Mexican authorities. I think we can do that.
    And the HIDTAs, Mr. Congressman, are working spectacularly. 
I would argue they would work with or without Federal dollars, 
because smart cops do cooperate, and the prosecutors do. I go 
to these HIDTAs in the Northwest and Minnesota and New York 
City. You have given me enormously increased money. In 1991 it 
started with five HIDTA's, $46 million. Now the total amount of 
money for all the HIDTAs is $186 million. I am an unabashed 
supporter of the HIDTA process.
    I do believe we need to be careful that this is not micro-
managed by congressional actors, where the budget is placed for 
political reasons in support of certain programs. I think we 
are on the edge of losing control of it. You passed a law and 
told me to identify where HIDTAs should exist and to recommend 
to you that process, and then you asked me to identify the 
budgetary recommendations. I am getting way too much help on 
this process.
    Mr. Mica. I think we are going to have to turn to one of 
the other congressional actors. I appreciate your response.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman. I wanted to make a 
couple of comments, and I have a few questions that I will put 
together and that you can address because they are similar.
    One is that I think anybody who looks at the numbers can 
get so frustrated that they say--and this is what we are 
starting to face at the grassroots level--``Well, this does not 
do any good.'' That is simply not true, as you have pointed 
out.
    Let me make first a political statement. I believe that in 
the first few years of this administration, drug use in this 
country soared, as we backed up. But I also believe that, just 
like your recent statistics you put out, we have made some 
progress in the last few years. It will take a lot more 
progress just to get us back to 1992; but at the same time, 
since you have been working aggressively in your office and 
given an organized public forum, and as this administration has 
joined with us in the fight, we in fact have made progress.
    And it is not true for people to say that we have not 
reduced drug use in the United States, or reduced violent crime 
in the United States. It is just very hard and very expensive. 
And the more pressure we put on, in effect, the marginal costs 
become greater. But I think it is very important to always have 
that in the record, that in fact we have been making some 
progress now for the last few years. It is not true that we are 
``losing'' a drug war. We have in fact been gaining ground. We 
just lost so much ground that it is hard to get it back.
    Second, every time we visited Mexico or South America, 
there is no way to separate. I want to put a couple of facts 
into the record. Our exports to Mexico surpassed United States 
exports to Japan, now making Mexico the second-most important 
export market after Canada. We are Mexico's predominant trading 
partner, accounting for 85 percent of Mexican exports and 77 
percent of their imports. We are the source of 60 percent of 
their direct foreign investment.
    There is no way we are going to stop this trade process. I 
say that as somebody who has had skepticism about NAFTA all the 
way along, and who 2 days ago just lost another plant of 450 
well-paid employees to Mexico; which now makes my record going 
about every 30 days getting a plant closing in my district, 
moving to Mexico. But the fact is, that is not going to reverse 
itself. We have to figure out how to best deal with this.
    And when you have the amount of trade we have, and the 
immigration--in my district, I have seen a massive increase in 
the number of Mexican immigrants, because our unemployment rate 
is at 2.5 percent and the industry needs them. And we might as 
well acknowledge that we are having some major things 
interacting with the border control that make this question a 
very complicated one, both international and domestic.
    Now, I have a few questions that relate. I, too, am 
hopeful. You said there were nine extraditions. And I believe 
we have made some progress on the Mexican nationals that have 
been extradited on drugs. That is one of the things we are 
really watching.
    A second thing is, in the vetted units, is there anything 
we can do to accelerate that process, in training, in 
additional dollars? Because it is clear we cannot control this 
just on our side of the border; yet, there are nationalist 
things in Mexico that we can and cannot do. You referred to the 
importance of intelligence dollars. Does that include boosting 
dollars related to tips? What things can be done? You said they 
are working at the Guatemalan and the southern border, but we 
really need their help at the northern border as well.
    And my last question is--and that kind of ties in with the 
intelligence question--as we have seen in Miami, they moved to 
the airports and other things. As you have said, they are 
smart. In other words, wherever we put the pressure, they put 
around. Is it intelligence and some of the things like that you 
are putting emphasis on? And could you identify a little more 
what you mean by that? Because the general assumption that many 
of us have is that is exactly what is happening: Wherever we 
put the pressure, they adjust to that.
    So what are some ways to directly deal with that problem? 
Are there specific requests regarding intelligence, their 
vetting units, their dollars, things we can do to help 
strengthen their side of it, in addition to continuing to put 
the money into our side?
    General McCaffrey. The extradition process, Mr. 
Congressman, I would ask you permission to submit for the 
record a statement on how we are doing this year. There was one 
huge challenge to us and Mexico concerning cooperation: they 
got a bad court case they are trying to deal with. Essentially, 
it appeared to be barring further extraditions of Mexican 
nationals, in accordance with their own Constitutional 
restrictions. Mexican authorities are trying to work to deal 
with this in accordance with their own laws.
    But I believe there is a common agreement on both sides of 
the border that we will not allow a fugitive from justice to 
violate our laws or theirs and hide on the other side of the 
border. I think we are continuing trying to work that 
successfully. And the two Attorneys General have secure phones 
in their offices, and they do talk about not policy, but court 
cases, by name, ``How are we going to get this criminal suspect 
extradited to the other country?''
    Vetted units: They are doing better. The sort of gross 
number is, they have now vetted 6,000-some-odd people. They 
have flunked a little under 1,000. They are trying to conduct 
oversight of their own law enforcement agencies. But there are 
huge institutional challenges to them building law enforcement 
operations that will work.
    There are vetted Mexican law enforcement military and 
police units and intelligence units that are working in 
cooperation with United States authorities, and that is 
something we ought to be proud of. At the same time, there is, 
as we understand, massive corruption implicit in local law 
enforcement, and in some cases in the judicial system. It is 
something to be dealt with, and I do not think we are going to 
see our way around that for a generation.
    When it comes to intelligence, I think we are making some 
enormous progress. In an open hearing, with your permission, I 
will be a little bit cautious about what I say. We are 
identifying vulnerabilities of these criminal systems. CNC, the 
CIA, acting as sort of the executive agent, has brought 
together--we have periodic inter-agency meetings: How are we 
going to target these people, collect evidence? How do we then 
disguise where we are getting it? How do we then find cuing 
systems so that U.S. law enforcement authorities, to include 
the Coast Guard, are tipped off, without betraying sources and 
methods? Then we are arresting people.
    This process is working. There are huge seizures going on. 
And this is, by the way, not just United States-Mexican 
cooperation; this is global authorities. We are working very 
closely with European Union partners, with Thai authorities. 
Probably in a closed session we would be glad to lay out more 
of that.
    I think we are moving in the right direction. Funding is an 
issue, and one that we have developed some new thinking that 
may require new ways of looking at resources.
    Mr. Souder. Mr. Chairman, if I may just make one small 
comment with that? If we can look at a discussion of what we 
can do, I do not know that we can afford a generation. I mean, 
I understand why you are saying that, as far as changing their 
law enforcement. If there are any things we can do to 
accelerate that, in boosting the pride, exchange programs with 
our police academies, ways to give awards through other means 
to get it to the Mexican Government to build the pride and 
income in their law enforcement. Because, I mean, a generation 
does not do much for us. And yet, I understand that unless we 
kick that process, that is exactly what we are looking at.
    General McCaffrey. Yes, I get your point.
    Mr. Mica. Thank you, Mr. Souder.
    I am going to go to our vice chairman, and then I will go 
to you two gentlemen, if you do not mind. Mr. Barr, you are 
recognized.
    Mr. Barr. Thank you, Mr. Chairman. General McCaffrey, it is 
always an honor to have you here, and we appreciate your work, 
and I do personally very much, in support of our overall drug 
effort. Although I was not here to hear your direct testimony, 
I understand you commented on and provided some guidance and 
thoughts on creating a better coordinating structure for our 
Southwest border region. I think your ideas have a lot of 
merit, and I appreciate your providing those to us.
    Several years ago, when I served as the United States 
Attorney in Atlanta, we had the problem of trying to extradite 
individuals from Colombia to the United States. The Colombian 
Government at that time paid a dear price for beginning the 
process of trying to extradite some of their drug traffickers 
to the United States. They do not just have to deal with harsh 
words down there, the people, they bomb and kill large numbers 
of people, including supreme court justices and political 
figures.
    One of the very first individuals that was extradited up 
here to the United States was a cartel money launderer, and he 
was extradited to Atlanta. We had him under indictment there. 
Shortly thereafter, though--and I do not recall exactly when it 
was--Marion Barry was seen on international TV with the 
undercover tapes doing cocaine. And then shortly after that, 
the verdict was rendered in his case, in which I think he was 
convicted of a misdemeanor and did a small amount of time.
    That had a direct and very negative, almost a chilling 
effect--understandably so--on the willingness of the Colombian 
Government to stick its neck out to extradite individuals up 
here, because of the feeling that, ``The U.S. is not really 
serious about fighting drugs internally, where you have--'' as 
I remember seeing traffic ``--where you have the Mayor of your 
own Nation's Capital doing drugs and basically getting a slap 
on the wrist.'' It really chilled the process that was 
beginning to move forward before that time of starting to 
extradite some of these kingpins and top money launderers to 
the United States.
    We now have the prospect of drug legalization in the 
District of Columbia--not just a mayor doing drugs, but large 
segments of the population. We now know, for example, that 
almost 70 percent of those who voted in a drug referendum last 
year favor legalization of marijuana. And I have a great 
concern that, if this process moves forward, it will send a 
very, very negative message to those governments, those foreign 
governments, that are the source countries or the transit 
countries for the drugs moving into this country. Because 
whether we have problems with them from time to time on 
coordinating our activities or what-not, we do rely on them 
having faith in our system so that when they engage in 
activities in cooperation with us they are going to get the 
support here in this country of fighting drugs.
    So I do have a concern about the message that this will 
send--that has already been sent by this drug referendum having 
been on the ballot, and the results of it now being made 
public. But of course, the President has that D.C. 
Appropriations bill which contains, for example, the amendment 
that I proposed during the appropriations vote that would 
prohibit the District of Columbia from taking any steps to 
implement any drug legalization initiatives.
    Do you share my concern that we need to oppose efforts such 
as the one in D.C. to legalize drugs?
    General McCaffrey. Senator Inhofe has just invited me to 
testify next Wednesday on just this issue, and I told him 
yesterday I look forward to that opportunity. Unequivocally, we 
are opposed to a State or District of Columbia referendum to 
try and change the FDA-National Institute of Health system by 
which we adjudge compounds to be safe and effective as 
medicines. This is a goofy way to go about sorting out what 
works in the best medical system on the face of the Earth.
    We want to screen out Laetrile and Thalidomide. We want to 
screen in the magic drugs that have made our system of medicine 
so effective. We are unalterably opposed to doing that and we 
will go say that again Wednesday in front of the Senate 
committee.
    I would also agree with you that it is probably a bad 
signal. I am less worried about Colombian criminals reading 
this the wrong way than I am about American 12-year-olds. You 
know, ``If smoked pot is so effective as a medicine, if it is 
so positive a compound, then is it or is it not really a threat 
to my development as an adolescent?'' That would be my first 
concern.
    I think I would narrow the issue, though, Mr. Congressman, 
to say that medical pot is an issue that ought to be decided on 
science and medical basis, and not confused as a political 
issue. As long as we stay on that basis, we will end up with 
good policy. That is not what is happening. We have a very 
clever group who is pushing a drug legalization agenda, using 
industrial hemp and medical pot as their approach.
    I do not argue that all of those who support medical pot 
are for legalization of drugs. I think it has been a failure on 
the part of those of us who understand the drug issue to 
adequately communicate why these State referendums do not make 
sense. The American people, when they get a reasonable 
explanation of the pros and cons of the issue, normally end up 
with a pretty sensible decision. I think we are failing in our 
efforts to communicate that.
    Mr. Barr. And with the D.C. pot initiative in particular, I 
mean, there are all sorts--I mean, it is one of the goofiest of 
the goofy that I have seen, providing for best friends can grow 
the pot for you. It does not require even a piece of paper that 
a doctor has written something on. I mean, there are all sorts 
of easy ways to show why it is a bad idea.
    If I could, Mr. Chairman, I would just ask two very, very 
quick questions on followup. Has the President, or anybody on 
his behalf, asked your opinion on the D.C. pot initiative and 
the language in the D.C. Appropriations bill that would stop it 
from moving forward?
    General McCaffrey. Well, of course, Mr. Congressman, it 
would not be appropriate for me to tell you what advice I have 
given the President, or have not. It is clear that the 
administration position is, in public, in writing, we are 
opposed to deciding safe and effective medicines through public 
referendum. That is unequivocal. There are other issues that 
are going to be involved in this one, D.C. local authority. So 
there will be other issues that are outside of my purview.
    Mr. Barr. But on an issue within your purview, as Director 
of the Office of National Drug Control Policy, and given your 
very strong opposition to these legalization issues----
    General McCaffrey. Secretary Shalala and I and Dr. Alan 
Leshner and others are opposed to political initiatives which 
attempt to legalize specific medicines. We do not want heart 
medicines voted on in a public referendum; nor do we want 
smoked marijuana made available through that approach.
    Mr. Barr. But the language in the D.C. Appropriations bill 
that would prohibit the District of Columbia government from 
moving forward with any steps to legalize drugs or reduce the 
penalties provided under Federal law, you support that 
language, do you not?
    General McCaffrey. I have not read the language. From what 
you are saying, yes, I would support it. But again, what I 
would like to do is say, if this is really a medical issue, if 
you are talking about safe and effective medicine, then let us 
make that the purview of the NIH, FDA, and the American Medical 
Association, and make doctors stand up to the issue. They are 
hiding on the issue.
    Mr. Barr. Well, would your preference be for the President 
not to veto the D.C. Appropriations bill, or any bill, simply 
because it contains the language that prohibits D.C. from 
moving forward with drug legalization?
    General McCaffrey. We are adamantly opposed to the 
legalization of any agents under the CSA. That is in writing. 
There is no question of that. We are also adamantly opposed to 
smoked marijuana bypassing the FDA/NIH process.
    Mr. Barr. Therefore, would it be----
    General McCaffrey. I really would not prefer to go ahead to 
discuss Presidential action on language I have not read. Let 
the lawyers read the action. What you have heard, though, is 
not just my viewpoint; it is the viewpoint of Secretary 
Shalala, Dr. Alan Leshner, and the others of us who watch this.
    Mr. Barr. If I could, I am surprised that you have not read 
the language. Would you take a look at that and give me your 
views on it?
    General McCaffrey. Sure.
    Mr. Barr. The language in the D.C. Appropriations bill that 
we inserted?
    General McCaffrey. Yes.
    Mr. Barr. Thank you.
    Mr. Mica. Thank you. I am going to recognize Mr. Bilbray. 
He is not a member of this subcommittee, but he is from 
California, represents Imperial Beach. And we have heard from 
Texas; we will get a chance to hear from California now.
    Mr. Bilbray. Thank you. The gentleman from Texas and I are 
probably the two who live and sleep within site of the border. 
And let me just followup on comments made by my colleague from 
Georgia. I would assume that the administration continues to 
oppose the California initiative that passed a few years ago, 
General?
    General McCaffrey. Absolutely.
    Mr. Bilbray. Does that include the President who opposes 
that initiative?
    General McCaffrey. There is no question that we are 
adamantly opposed to using local referendums to decide which 
medicines are safe and effective.
    Mr. Bilbray. I just hope that with all the talk about 
equity and local control, that the people of D.C. are given the 
same protection as the people of California that have been 
supported by the administration on this issue. But that aside--
I just want to point out that it is not just somebody picking 
on D.C.; that the California initiative is consistent with the 
administration's position on D.C.
    General McCaffrey, as somebody who has worked along the 
United States-Mexican border for over 20 years, I see a lot of 
perceptions about Mexico and about the Mexican Government not 
doing enough. And frankly, for those of us who have watched 
what has happened in Mexico, we have seen that Mexico finally 
woke up to the fact that you cannot sneak up on the drug 
problem; you are going to finally have to get totally committed 
and totally involved.
    Yet the corruption issue is raised again and again. My 
concern is that, as we point fingers on Mexico--remember, I 
have been probably one of the worst critics of Mexico on a lot 
of issues. But on this one, the fact is that Mexico took 
dramatic action a few years ago; they went in and totally 
changed their approach to drug interdiction along the border, 
did they not, with the restructuring?
    General McCaffrey. Exactly. They have made a major effort 
to change this. They have increased the amount of money they 
put in it dramatically, and they are trying to reorganize their 
effort.
    Mr. Bilbray. And not just that, but they changed who was in 
control, how it was going to be managed.
    General McCaffrey. They have, indeed.
    Mr. Bilbray. It was pretty dramatic in San Diego--and I do 
not know about along the rest of the border--where they 
actually called in Federal agents, lined them up in front of TV 
cameras, and said, ``We are going to ship you all to Mexico 
this afternoon, and the military is going to come in and 
preempt the operation, because of the concerns.''
    I only wish that we will wake up and see this same kind of 
commitment and not find excuses. In fact, in looking at Mexico, 
I am trying to point out what they found about intercepting the 
drugs.
    I see searches every 50 miles along their highways. I see 
the military being totally committed. I see their efforts; some 
we would not even consider. And I think the reason why they 
have taken those steps is the fact that they realized that they 
are being taken over; that basically this issue is going to 
totally absorb them.
    With respect to the bureaucratic issue and coordination, in 
the San Diego sector, we saw Alan Bursen come in, be appointed 
by this President, and basically really come in, organize and 
coordinate that effort. We saw dramatic changes. We saw 
outreach across the border. And basically, as my colleague from 
Texas said, you started seeing an attitude change that quit 
finding excuses not to get the job done, quit walking around 
it, quit dancing around the issue and go right for it. Why 
could we not initiate that kind of policy across the entire 
frontier from Brownsville to Imperial Beach?
    General McCaffrey. Yes, I think that is exactly what is 
required. And Mr. Bursen, Rhodes scholar, All-American football 
player, remarkable personal leadership capabilities. And also, 
with a local community that was fed up. I do not need to tell 
you that. But southern California just had enough of this. So 
there was a dramatic response.
    And we see other people. Mr. Kelly in New Mexico is doing 
brilliant work. All five Southwest border HIDTAs are doing a 
tremendous job. So there is movement. But Mr. Kelly had no 
authority over anyone but Justice Department actors; not the 
Department of Agriculture, not the Customs Service, not the 
Coast Guard, et cetera. There was cooperation with his 
leadership. At the end of the day, I think we need 
institutional coordination of this issue.
    Mr. Bilbray. Well, but those of us that lived along the 
border and do so today, we keep hearing Washington find excuses 
of why extraordinary measures not only should not be taken, but 
cannot be taken. And in fact, we have heard the excuses for 
decades. Silvestre Reyes is a legend in San Diego, because he 
was one guy who was willing to stand up and he said, ``We not 
only can do it, we must do it.''
    Now, Mr. Chairman, I would ask one question. How many drug 
smugglers are intercepted every year along the border? Do we 
know how many were intercepted last year?
    General McCaffrey. I have a chart that shows tonnages of 
drugs by types seized. I have a chart that shows number of 
arrests. It is mind-boggling.
    Mr. Bilbray. How many of those drug smugglers were 
processed through the Justice Department, and how many were 
released back into Mexico?
    General McCaffrey. Many of them.
    Mr. Bilbray. Now, if we are a country that says we are 
absolutely committed to stop drugs, how can we justify looking 
at the American public and saying, ``We are releasing drug 
smugglers out of this country without processing them?'' Is the 
excuse that we just do not have the resources?
    General McCaffrey. Let me, if I can, underscore, because I 
actually probably have a different viewpoint, Mr. Congressman. 
We arrested 1\1/2\ million people last year on drug-related 
crimes. We have now have 105,000 people in the Federal prison 
system. Two-thirds of them are there for drug-related offenses. 
That has doubled in 7 years. There is no question in my mind 
that there has been a blowtorch-intensity response by U.S. law 
enforcement and prosecution against drug-related crimes, 
particularly those at retail sales and above.
    Now, what we were almost overwhelmed by, and why I am in 
favor of fencing and manpower and working with Mexico, is that 
when you shotgun marijuana across the border and you are 
arresting--as you know, you can go down and stand at Otay Mesa 
and watch a drug bust every 30 minutes. We do not want to take 
a 25-year-old Mexican mother with two borrowed children and 
prosecute her, when she has carefully come in right under the 
prosecutorial guidelines.
    Mr. Bilbray. But what I am saying is, if I drove my two 
children across the border with the same amount of drugs, would 
you release me?
    General McCaffrey. Well, I hope not. I hope you would be 
doing California----
    Mr. Bilbray. Well, doesn't this sound a little bit like a 
violation of equal protection under the law? Or unequal 
prosecution? That's the message here.
    Let me just say this. I have been asked by the counties 
along the border to say one thing to you. If you are not going 
to prosecute the drug smugglers, if you do not have the 
resources within the Federal system, then for God's sake, work 
with the counties and the States and allow them to prosecute. 
But as you release them, the message going back to Mexico is, 
``Here is the game, guys. Stay under this artificial limit that 
some bureaucrat has set up, and you can play the game. Make 
sure you drip the drugs into America, and America will not only 
accept it, but they will give you a free ride back.'' This is 
the kind of process that I think that we have to take 
responsibility for.
    Mr. Chairman, I would just ask you to consider this. Can 
you imagine what the reaction of the United States people would 
be if Mexico was actively taking drug smugglers that they had 
captured and driving them to the border and saying, ``Here, go 
in the United States, and no problem''? That is the kind of 
thing we are doing.
    I am asking of one thing about that is substantive: the 
commitment by the administration to prosecute everyone who is 
in possession of drugs, be it a U.S. citizen or not, not to 
tell U.S. citizens, ``We catch you, you are going to be 
prosecuted. But we catch a foreign national, we are going to 
send them home.''
    General McCaffrey. Presumably, Mr. Congressman, you are 
also talking about county prosecution and State prosecution, 
also. Zero tolerance of drug smuggling? You would have your 
local authorities do the same thing?
    Mr. Bilbray. Well, the local authorities will say they will 
do it. The trouble is to ask the counties, which tend to be 
some of the poorest counties in this country, to do the 
prosecution for the Federal Government without reimbursement. I 
think we need to seriously talk about providing a fund to 
reimburse for the prosecution.
    General McCaffrey. Ignoring Federal violations, you are 
suggesting absolute prosecution by county and State officials 
for all drug seizures of any amount?
    Mr. Bilbray. If possible.
    General McCaffrey. To include in Los Angeles foreign 
nationals encountered selling drugs in the streets of Los 
Angeles?
    Mr. Bilbray. No, look, I am talking about the fact that----
    General McCaffrey. The only reason I point this out is, I 
have respect for your viewpoint. I think this is a resource 
issue. It is a prioritization issue. I think what many of us 
would like to do is make sure we have a clever, seamless web of 
Federal-State law and law enforcement across that border. But 
we do not want to prosecute a rented dupe from Mexico, a 25-
year-old mother with a child with her. We want to go after 
the----
    Mr. Bilbray. Excuse me, but this is the whole point of a 
``rented,'' one who is being paid to smuggle drugs is a drug 
smuggler. This attitude of saying who is a dupe and who is not 
is a problem. The dupe is the American taxpayer and the 
American Government is sitting, allowing people to work the 
system by saying, ``I was just a dupe.''
    General McCaffrey. Remember, 60 percent--And again, I say 
this respectfully, but it is put in context. Because I just had 
a conversation with the mayor of Los Angeles which I found 
curious. Sixty percent of the methamphetamines in America 
probably are manufactured in southern California. I think we 
have to remember that the problem of drug smuggling is not that 
of Mexico; it is involved with a lot of us.
    The same thing occurs up on our Northern border, for 
example, in Vancouver, Canada: a huge external drug threat to 
the United States.
    Mr. Bilbray. I want to just make one comment on that. The 
methamphetamine production in San Diego County was huge, and 
now has been almost eradicated. The reason is that we put the 
pressure on the county. They moved it to Tecate, the hills 
behind Tecate, and now it is coming through over the Federal 
border.
    What good is it for the local people to go after the local 
production and drive it out of their community, if it is just 
going to be moved south and the United States is going to 
continue to allow it to cross?
    General McCaffrey. I think the prosecution of 
methamphetamines, cocaine, heroin, we ought to have about zero 
tolerance. I could not agree more.
    Mr. Bilbray. Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentleman from California.
    I would now like to recognize the gentleman from Arizona, 
who also chairs one of the panels with great financial 
responsibility over this issue, Mr. Kolbe.
    Mr. Kolbe. Thank you very much, Mr. Chairman. And I 
appreciate your making it possible for members of the Border 
Caucus and those of us who are most affected by this problem of 
drugs along the border on a regular basis to sit in on your 
hearing today. I am very grateful for that.
    I will be very brief, because since I do chair the 
subcommittee that funds ONDCP I get an opportunity to have 
General McCaffrey and others from his organization before my 
subcommittee on a fairly regular basis. I am glad this hearing 
has really focused on the problem of drugs along the border.
    There is no doubt about it: We are facing an enormous 
problem. And it is a dual problem for those of us in Arizona, 
because we have become, unfortunately, the major crossing point 
now for illegal aliens coming into the United States. As we 
have been more effective in hardening the border in places like 
San Diego and El Paso, it has acted like a funnel. So we have 
the largest number of people who have been taken into custody 
coming across the border in the last year having been, 
ironically, in the rural parts of Arizona. We have even 
succeeded in some of our cities in hardening it in Arizona, but 
we have this massive flood of people coming through the fences 
in the rural areas.
    What we are finding as a result of that is that there is a 
lot more of the drug smuggling coming this way. The border and 
that area have become much more dangerous. There has been much 
more violence. There have been many more shootings that have 
been taking place along the border. It is a very serious 
problem.
    I have two questions that I would ask of you, General: What 
are we doing to get more of the technologies that we need down 
to the border? I do not mean just to the Federal law 
enforcement agencies, but to the local law enforcement agencies 
who are really on the front lines of dealing with this, as much 
as Customs and Border Patrol, every day.
    We have a lot of new technologies, and some of them are 
those that can be used in checking trucks and vehicles as they 
come across the border. It seems to me we are very slow in 
really getting this technology down to the border areas.
    General McCaffrey. I am not sure I disagree with you. It 
has taken us 2 or 3 years to really energize this process. You 
are giving us significant amounts of money. That is what we 
have done with it. Although it says over the past 5 years, 
essentially that is 2 years work. So it is starting to show up.
    It works. The training systems work. The maintenance 
program works. The problem is, as we have suggested, if you are 
at Otay Mesa and San Ysidro, but you are not at the next, 
Calexico crossing point, and if you are smuggling 200 kilograms 
of cocaine, you do not go through the border at Otay Mesa. You 
move down to Calexico. So we have said there has to be 
coherency, a seamless web, and it has to be keyed to 
intelligence. It is not going to sort out the truck with the 
cocaine unless the intelligence system tells it which ones to 
put through at nine per hour.
    But your money is going to pretty good work. I think as we 
see this go into place in the coming several years, it is going 
to pay off. We have also have the maritime flanks. The Coast 
Guard and the Border Patrol and Customs are also working. It is 
tied into a cross-border effort inside Mexico. I think the 
seizures, for example, this year are going to be up 
dramatically on the Southwest border and in Mexico. The 
Mexicans are doing pretty well.
    The second thing you have given us is money for a 
counterdrug technology transfer program--I would suggest not 
enough, although you give us more than we ask for each year. It 
is still a modest program. Those sheriffs departments and 
police departments along that border cannot afford--this 
morning I was listening to Sheriff Lee out of New Mexico--the 
vehicles to prosecute law enforcement in their own counties, 
given the level of threat they are facing.
    So we probably do need to look at enhanced resources for 
technology transfer. We are moving in the right direction; a 
lot of work to be done.
    Mr. Kolbe. Well, it seems to me, if that is the case, we 
are not getting enough to you, but it is more than the 
administration has requested. You need to be a louder voice 
within the administration for trying to beef up that transfer 
of technology. I happen to believe that that transfer of 
technology is exceedingly important to what is going on.
    General McCaffrey. I agree. Yes.
    Mr. Kolbe. Is the coordination along the border what it 
should be? We have these HIDTAs, we have the Southwest border, 
we have the High Intensity Drug Trafficking Areas in each of 
these areas there, we have JTF-6 in El Paso. Is the 
coordination of the effort what it ought to be?
    General McCaffrey. No, I do not think so.
    Mr. Kolbe. What have you recommended about changing that?
    General McCaffrey. We have a paper that I sent over to 
Congress that outlines the concept that we are trying to 
achieve. Pieces of it have happened. There is no question that 
the intelligence architecture that Congress asked me to pull 
together is now being completed, and Director Tenent from the 
CIA, the Attorney General, and I and the other actors will now 
move to create a better system to make sure intelligence 
supports law enforcement on drug systems.
    It is clear we have more manpower. You have given us more 
resources, so you are seeing now the payoff of those programs; 
in southern California certainly, and pieces of the rest of the 
Southwest border. You can see fencing going in, and adequate 
manpower and technology.
    Mr. Kolbe. Even though the fences were opposed originally? 
I point out fences were opposed originally. You know, all those 
physical barriers originally were opposed.
    General McCaffrey. There are a wealth of viewpoints on 
that, Mr. Congressman. Mine is very supportive of fencing, low-
light TV, sensor technology, manpower, aviation to the Border 
Patrol.
    Mr. Kolbe. I, too.
    General McCaffrey. Bottom line, Mr. Kolbe, is I think what 
we lack is a coordinator at each port of entry who State and 
local authorities and Mexican authorities know is capable of 
integrating horizontally the activities of the Federal law 
enforcement in that zone or sector. I think we need that. I 
think we need one in El Paso to integrate the Southwest border.
    Having said that, there is a BCI initiative by Customs and 
INS, so each of the 39 border crossings now does have a 
committee which is pulling together in a very enhanced way 
those two departments of government. And that is good, and we 
ought to be proud of that. But there are four major departments 
of government, and 23 agencies involved. It is my own view that 
we can do better in orchestrating this, and make it simpler on 
the sheriffs and police chiefs who have to work with us.
    Mr. Kolbe. Well, I would agree with you. Mr. Chairman, I 
will not ask to have any further questions.
    I would just agree with you. I think we have a very 
piecemeal operation. I see it every day, when I am there and 
talking to these people. Coordination is missing. And I do not 
have an easy answer as to how to do it. There is a tremendous 
amount of turf protection by law enforcement at all levels. 
Everybody wants to have a piece of the action. Everybody wants 
to be top dog. And the only ones that must be laughing about 
all of this are the drug dealers, who benefit from our 
willingness to spend more of our time fighting each other than 
fighting them. I think that happens all too often.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Thank you for your comments and your 
participation.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    General, in terms of the drugs transiting the Southwest 
border, from a source standpoint, do they originate in Mexico, 
or elsewhere?
    General McCaffrey. All the cocaine originates elsewhere. 
What we have said is that 80 percent of the cocaine in America 
originates in or transits through Colombia, which is now the 
leading producer of cocaine on the face of the Earth.
    A tiny fraction of the world's heroin is produced in 
Mexico, about 5\1/2\ metric tons; another small amount, 6 
metric tons, in Colombia. However, since we probably only 
consume around 11 metric tons, our law enforcement intelligence 
says that a little more than 70 percent of the heroin seized in 
America came out of Colombia, in particular. But a lot of that 
is just superb police work by Customs and DEA in particular. 
There are still huge amounts of Burmese heroin in America, as 
an example.
    Mr. Ose. The reason I ask that question is that we have a 
particular initiative we have been working on for 3 or 4 years 
relative to some assistance we are trying to provide to 
Colombia, as it relates to some helicopters. You know we have 
had this conversation before. I saw that we got six Hueys down 
there recently.
    Could you give us a status report on that particular 
initiative as it relates to the various helicopters we are 
trying to get to Colombia?
    General McCaffrey. It would probably be best to give you a 
written update from the State Department. Essentially, there 
are 150 helicopters there. There are more en route. I believe 
it is 18 UH-1Ns and 6 Blackhawks that are still to go. The UH-
1Ns, I believe some of them are now there, and others are being 
certified and shipped. The Blackhawks go in this fall.
    We are trying to train pilots, get maintenance systems, et 
cetera. But that is moving faster than I would have expected. 
It should have been a 3-year process to build the chopper and 
to bring together the crews. I think they will be in there this 
coming fall, or later. That is about where the mobility is.
    Mr. Ose. Fall started, I think, last night, technically. I 
do not know if that is accurate or not. But when you say fall, 
you mean prior to December 23rd?
    General McCaffrey. The six Blackhawks--I had better give 
you an answer for the record--you have to train the crews, get 
the maintenance system in place, and ship them. And it is 
moving forward. I believe they will be there in the fall, if I 
understand it.
    Mr. Ose. I do want to pass on a compliment. That is I did 
see where the six Hueys were delivered. I am appreciative of 
that. I do not think this is only along the border that we need 
to deal with this problem.
    General McCaffrey. Right.
    Mr. Ose. With respect to Colombia in particular, I cannot 
overemphasize my interest in providing our friends in Colombia 
with the tools in which we have committed, so that we can help 
them help us.
    With that, Mr. Chairman, I will yield back.
    Mr. Mica. Thank you. I think we have run the full gamut 
here. If there are additional questions, I think we can submit 
them to the Director for response.
    Again, we appreciate your cooperation with our 
subcommittee. As you can see, there is incredible interest on 
behalf of the Members of Congress. I think we have every border 
State represented here, chairs of some of the subcommittees 
involved, and ranking members. So we are pleased that you have 
responded. We look forward to working with you. It is a 
tremendous challenge, but hopefully we can do a better job on 
the Southwest border while working together.
    There being no further questions of the witness, you are 
excused. Thank you.
    General McCaffrey. Thank you, Mr. Chairman.
    Mr. Mica. I would like to call our second panel, if I may. 
We have Lieutenant Raul Rodriguez, who is with the Metro Task 
Force, Nogales, AZ; Mr. Dennis Usrey, Director of the Southwest 
Border High Intensity Drug Trafficking Area, the HIDTA in San 
Diego, CA; and Chief Tony Castaneda, and he is the chief of 
police of Eagle Pass, TX.
    I think this may be your first time testifying before us. 
This is an investigations and oversight subcommittee of 
Congress. We do swear in our witnesses, so if you would stand, 
please, and raise your right hands.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative. I 
would like to welcome our three panelists. We do ask, if you 
have any lengthy statements, that they be submitted for the 
record, and I will be glad to recognize a request for those 
submissions.
    With that, I would like to recognize and welcome Lieutenant 
Raul Rodriguez, with the Metro Task Force in Nogales, AZ. You 
are recognized, sir.

  STATEMENTS OF RAUL RODRIGUEZ, LIEUTENANT, METRO TASK FORCE, 
  NOGALES, AZ; DENNIS USREY, DIRECTOR, SOUTHWEST BORDER HIGH 
   INTENSITY DRUG TRAFFICKING AREA, SAN DIEGO, CA; AND TONY 
           CASTANEDA, CHIEF OF POLICE, EAGLE PASS, TX

    Mr. Rodriguez. Chairman Mica, present Representatives, 
distinguished Members, it is an honor to testify before you.
    Mr. Mica. You might pull the mic up as close as you can.
    Mr. Rodriguez. It is an honor to testify before you. I have 
some oral remarks I would like to offer, and I have also 
prepared a written statement which, with your permission, I 
would like to provide for the record.
    Mr. Mica. Without objection, the written statement will be 
made part of the record. Proceed.
    Mr. Rodriguez. Thank you, Mr. Chairman. I am Lieutenant 
Raul Rodriguez, from Santa Cruz County in Nogales, AZ. I am 
commander of the Santa Cruz Metro Task Force. It is a multi-
agency: a Federal, State, and local agency, investigative and 
interdiction centerpiece Task Force located in Nogales, AZ.
    The Task Force is co-located with U.S. Customs 
Investigations. Participants in the Task Force are the Santa 
Cruz County Sheriff's Office, the Nogales Police Department, 
the Federal Bureau of Investigations, the U.S. Customs Service, 
the U.S. Border Patrol, the Drug Enforcement Administration, 
the Arizona Attorney General's Office, the Arizona Department 
of Public Safety, Patagonia Marshal's Office, and the Santa 
Cruz County Attorney's Office.
    Our problem in Nogales, AZ and in Santa Cruz County is vast 
because we are one of the smaller counties in Arizona. It 
encompasses only 1,200 square miles. Nogales, AZ is the county 
seat, but Nogales, AZ is also the major port of entry for 
commercial and pedestrian traffic for Arizona. We have strong 
commercial ties between Nogales, AZ and Nogales, Sonora, 
Mexico, which is south of our city.
    Arizona shares approximately 370 miles of border with 
Mexico, which is approximately 25 percent of the total United 
States-Mexican border. Santa Cruz County has approximately 53 
miles of border with Mexico.
    The Task Force efforts deal directly with marijuana, which 
continues to be the most abused and commonly encountered drug 
on the border. Backpacking of marijuana continues to be the 
most common method of smuggling from Mexico to Arizona. Tucson, 
AZ remains the transshipment location for marijuana cargo 
destined for other regions throughout the United States. The 
current trend is that marijuana is smuggled on a year-round 
basis. It used to be seasonal. Statewide seizures for marijuana 
total up to 228 metric tons for 1998.
    Cocaine remains the second popular drug of choice in the 
county and Arizona. Cocaine seizures in our county have 
increased by 194 percent, according to figures from 1998 and 
1999, and we have not finished 1999. Nogales, AZ continues to 
be a focal point for cocaine seizures in southern Arizona. 
Tucson and Phoenix remain the primary transshipment location 
for transportation of cocaine via passenger vehicle and 
tractor-trailers.
    Heroin use is also on the rise in Arizona, also in our 
border community. Recently, we did an undercover operation with 
U.S. Customs O.I., which netted 2.4 pounds of heroin this year 
in Nogales, AZ. Our problem is established Mexican drug 
trafficking organizations operate freely and uninhibited within 
the border community of Nogales, AZ, Mexico, and the 
surrounding area.
    The corruption and the potential of violence along the 
United States-Mexico border are factors that directly and 
indirectly affect enforcement efforts. The influx of 
undocumented aliens has caused increased facade incursions 
along the border to hide illegal smuggled contraband along the 
border region.
    Established Mexican drug trafficking organizations have not 
eased their efforts to continue smuggling drugs across the 
border and into this country. The Task Force was the lead 
investigative agency which uncovered two secretly dug tunnels 
in January of this year. This case made national news. The 
tunnels were constructed and connected to a series of storm 
drains that led directly underground to Mexico. The 
investigation of this tunnel revealed that drug seizures made 
in California could be traced back to the covert operation of 
the drug tunnels.
    The drug threat in this community has affected the 
frequency of violent crimes that are committed against law 
enforcement and the public in this border region. In 1991, my 
supervisor for the Task Force, Sergeant Manny Tapia, was shot 
to death by a drug smuggler during an arrest. The 19-year-old 
suspect was transporting 140 pounds of marijuana in his vehicle 
when he shot and killed Sergeant Tapia.
    In April of last year, four marijuana smugglers on the west 
side of Nogales, AZ assassinated U.S. Border Patrol Agent Alex 
Kurpnick. Increased violence against U.S. Border Patrol agents 
along the border, with rock-throwing attacks, laser beam 
pointing, and actual incoming fire from Nogales, Mexico are on 
the increase.
    Our Task Force in 1998 was responsible for 53 percent of 
all felony filings in two superior courts within the 
jurisdiction of this county. The majority of crimes committed 
in this county are drug-related.
    Funding for the Task Force, however, has been stagnant. We 
receive our funding through the Edward Byrne Memorial Grant and 
the HIDTA grants. This year the Byrne Grant Fund was decreased 
by 8 percent; the HIDTA grant was not increased. Funding is a 
critical part of the joint policing efforts against drug 
crimes. Without the available resources, the Task Force will be 
hindered in its labors.
    That is all I have right now as a statement. I would 
entertain your questions.
    [The prepared statement of Mr. Rodriguez follows:]
    [GRAPHIC] [TIFF OMITTED] T6078.020
    
    [GRAPHIC] [TIFF OMITTED] T6078.021
    
    [GRAPHIC] [TIFF OMITTED] T6078.022
    
    [GRAPHIC] [TIFF OMITTED] T6078.023
    
    [GRAPHIC] [TIFF OMITTED] T6078.024
    
    [GRAPHIC] [TIFF OMITTED] T6078.025
    
    [GRAPHIC] [TIFF OMITTED] T6078.026
    
    [GRAPHIC] [TIFF OMITTED] T6078.027
    
    [GRAPHIC] [TIFF OMITTED] T6078.028
    
    [GRAPHIC] [TIFF OMITTED] T6078.029
    
    Mr. Mica. Thank you. We will get back to questions after we 
hear from the other witnesses. Next, Mr. Dennis--is it 
``Usrey''?
    Mr. Usrey. ``Usrey,'' yes, sir.
    Mr. Mica. ``Usrey,'' OK. The Director of the Southwest 
Border HIDTA, from San Diego. You are recognized, sir.
    Mr. Usrey. Thank you, Mr. Chairman. Chairman Mica, 
Representative Mink, other distinguished members of the 
subcommittee and certainly the Border Caucus who have shown 
their interest here today, it is indeed an honor to testify 
before you. And I want to thank the committee for the 
opportunity to discuss the drug threat along the Southwest 
border.
    Your interest and support for this vital region of our 
country is evident, and sincerely appreciated. I have some more 
remarks I would like to offer, and I also have prepared a 
written statement which, with your permission, I would like to 
provide for the record.
    Mr. Mica. Without objection, that will be made part of the 
record.
    Mr. Usrey. Thank you. I have served as the Director of the 
Southwest Border HIDTA since 1995. Part of that time, I served 
as the first Director of the San Diego and Imperial County 
Narcotic Information Network, a HIDTA sponsored and funded 
intelligence center. I have had the opportunity to observe the 
positive impact of this program, but I am not here claiming 
success; only to say that we have made progress along a very 
long and difficult journey. Much is yet to be done.
    We operate with the premise that drug trafficking across 
the Southwest border affects not only our communities, but also 
the entire Nation. The Southwest border marks the end of a 
transit zone for South American cocaine, Mexican and Colombian 
heroin, marijuana, methamphetamine and, importantly, the 
chemicals that are used to manufacture methamphetamine. The 
Southwest border region has long been burdened with smuggling 
and drug-related crime and violence.
    Since designation in 1990 as a HIDTA, the Southwest border 
has taken an innovative approach to drug law enforcement. As 
one of the original gateway HIDTAs, the Southwest border is 
unique in its progress in integrating the efforts of 86 local, 
17 State, and 12 Federal drug enforcement agencies.
    Throughout its 9 years of operation, and especially since 
the reorganization into the five regional partnerships in 1995, 
the Southwest border HIDTA has achieved an array of successes. 
Several examples are detailed in my written testimony, and you 
will hear others today, and have heard others.
    Funded at $46 million for fiscal year 1999, the Southwest 
border HIDTA supported 84 intelligence, enforcement, 
interdiction, prosecution, and support initiatives within the 
45 designated counties located in the four border States of 
California, Arizona, New Mexico, and Texas.
    The Southwest border is a collaborative venture involving 
local, State, and Federal law enforcement agencies that develop 
and implement regional threat assessments and strategies to 
reduce drug trafficking. This program is responsible for 
providing for a coordination umbrella for joint operations, 
instituting team work through continuous joint planning and 
implementation of enforcement operations, and providing for the 
promotion of equal partnerships amongst Federal, State, and 
local law enforcement agencies. And I think it is unique in 
that context.
    Notwithstanding the successes of this program, the work is 
not over. Law enforcement agencies along the border need your 
continued support, if we are to make substantial and long-
lasting impact on the problem. The entire criminal justice 
infrastructure at every level of government is severely taxed 
and unable to keep pace with the demands of enforcing the law 
along our border.
    Interdiction is primarily a Federal responsibility, but it 
cannot be successfully accomplished without State and local 
participation. These agencies do not shy away from the 
responsibilities in providing this assistance, but need 
additional resources to meet their many responsibilities.
    The Southwest border was quick to realize that the total 
infrastructure of narcotics law enforcement has to keep pace. 
The HIDTA program's initial emphasis on investigations and 
interdiction resulted in the impact in other areas of the 
criminal justice system; most specifically, prosecutions and 
jails.
    For example, increased emphasis and resources directed to 
interdiction initiatives at and between the ports of entry 
produced numbers of defendants that soon overloaded the ability 
of the U.S. Attorney's Office to prosecute. As a result, 
prosecutions initiatives were developed by the HIDTA to bring 
into play cross-designated local and State prosecutors to close 
this gap, by handling the dramatic increase in cases as a 
result of the enforcement efforts. For instance, the local 
prosecutors in San Diego at the D.A.'s office are prosecuting 
close to 2,000 cases per year, which can be primarily 
attributed to border interdiction efforts.
    It is likewise important to recognize that there must be 
sufficient detention facilities capable of handling the 
increased number of defendants as a result of the HIDTA 
enforcement initiatives. Often, defendants have to be lodged in 
facilities a substantial distance from the jurisdiction. I know 
we have prisoners from California housed in Texas for periods 
of time. And, you know, the logistics of that is mind-boggling, 
to say the least. Often, in more extreme cases, operations have 
been delayed until adequate jail space can be obtained for the 
people to be arrested.
    In summary, the agencies engaged in this effort have 
benefited greatly from the support you have already provided. 
The HIDTA program has increased in effectiveness and 
cooperation. However, our work is not done. As you have already 
heard, additional manpower, technology, and equipment are 
needed by the men and women who defend this Nation's border in 
a very difficult and dangerous environment.
    Thank you for this opportunity, and I look forward to your 
questions.
    [The prepared statement of Mr. Usrey follows:]
    [GRAPHIC] [TIFF OMITTED] T6078.030
    
    [GRAPHIC] [TIFF OMITTED] T6078.031
    
    [GRAPHIC] [TIFF OMITTED] T6078.032
    
    [GRAPHIC] [TIFF OMITTED] T6078.033
    
    [GRAPHIC] [TIFF OMITTED] T6078.034
    
    [GRAPHIC] [TIFF OMITTED] T6078.035
    
    [GRAPHIC] [TIFF OMITTED] T6078.036
    
    [GRAPHIC] [TIFF OMITTED] T6078.037
    
    [GRAPHIC] [TIFF OMITTED] T6078.038
    
    [GRAPHIC] [TIFF OMITTED] T6078.039
    
    [GRAPHIC] [TIFF OMITTED] T6078.040
    
    [GRAPHIC] [TIFF OMITTED] T6078.041
    
    [GRAPHIC] [TIFF OMITTED] T6078.042
    
    [GRAPHIC] [TIFF OMITTED] T6078.043
    
    [GRAPHIC] [TIFF OMITTED] T6078.044
    
    Mr. Mica. Thank you for your testimony.
    I would like to recognize now Chief Tony Castaneda, the 
chief of police of Eagle Pass, TX. You are recognized. Welcome, 
sir.
    Mr. Castaneda. Mr. Chairman, distinguished members of this 
subcommittee, I sincerely appreciate the invitation that I 
received to come before you and express our concerns. I commend 
you for the effort that you are doing for the American people. 
I have prepared a statement that I would like to be entered 
into the record.
    Mr. Mica. Without objection, the entire statement will be 
made part of the record.
    Mr. Castaneda. This statement is prepared for the purpose 
of outlining concerns that we face along the Southwest border 
of the United States. On February 25, 1997, I appeared and 
testified before this U.S. House of Representatives 
subcommittee on ``Counter-Narcotics Efforts in Mexico and Along 
the Southwest Border.''
    At that time, my testimony was to bring to light the lack 
of Federal law enforcement efforts in the areas of personnel, 
equipment, and other tangible resources on the Southwest 
border. Our citizens, mainly the ranchers and their families 
that lived along the Rio Grande River, lived in fear of 
narcotraffickers romping through their properties, spreading 
fear, and leaving behind paths of destruction of private 
property.
    Since that time, we have witnessed a steady but slow 
process of hiring Federal law enforcement personnel. During 
this same time, we continued to witness the steady increase of 
narcotics seizures and arrests. However, the true issue is that 
we are not stopping the steady flow of narcotics into our 
country. This is also a true reflection that the Southwest 
border of the United States is poorly understaffed to meet the 
challenging issues surrounding the fight against 
narcotrafficking.
    I represent a Texas community, Eagle Pass, of about 45,000 
residents, that borders a Mexican community with a population 
of close to 350,000. Our local U.S. Border Patrol leads their 
sector in apprehension and seizures of narcotics and its 
traffickers. They have become our most important drug 
interdiction force defending the Southwest border of this 
country.
    I have been the chief of police of our department for the 
past 5 years, and over that time I have seen the steady 
increase of narcotics-related crimes in the community. Most of 
the apprehended criminals have an extensive history of 
involvement in narcotics.
    Over the years, we have established an outstanding 
professional relationship with our Federal law enforcement 
counterparts. Our department has six officers assigned to the 
local DEA office and three to the U.S. Customs Office of 
Criminal Investigations. Their efforts are commendable.
    It is an overwhelming battle, and certainly, Federal 
attention needs to be serviced in this area in order to 
maintain the American quality of life that all of us are 
entitled. The protection of our quality of life is essential to 
the economic and social stability of our border communities. 
Thank you very much.
    [The prepared statement of Mr. Castaneda follows:]
    [GRAPHIC] [TIFF OMITTED] T6078.045
    
    [GRAPHIC] [TIFF OMITTED] T6078.046
    
    Mr. Mica. Thank each of you for your testimony and 
participation today.
    First question: You represent different border States: 
Arizona, California, Texas. I guess, generally, you are seeing 
an increase in narcotics trafficking along the border. Let's 
see, Arizona?
    Mr. Rodriguez. Yes, we are.
    Mr. Mica. You said you are seeing an increase in cocaine?
    Mr. Rodriguez. Yes, 194 percent.
    Mr. Mica. And heroin, also?
    Mr. Rodriguez. And in heroin.
    Mr. Mica. What about California?
    Mr. Usrey. Yes, sir. The statistics which have been 
displayed demonstrate that there has been an upsurge, at least 
in the amount of drugs that have been confiscated.
    Mr. Mica. Texas?
    Mr. Castaneda. Absolutely. In 1997, we seized 31,000 
pounds. This year, 1999, with the fiscal year still not 
closing, we are at 41,000 pounds.
    Mr. Mica. Are you seeing also increased violence along 
these areas, Arizona?
    Mr. Rodriguez. I started office as a narcotics agent when 
the sergeant was killed in 1991. Then, we were three agents in 
the Task Force. Comparing then to now, the last two homicides 
of law enforcement officials in our county have been drug 
related during the course of a drug smuggling operation.
    Mr. Mica. So you are seeing increased violence?
    Mr. Rodriguez. Yes.
    Mr. Mica. In Arizona?
    Mr. Rodriguez. In Arizona. The rock-throwing incidents 
around the Nogales and Santa Cruz County areas is just as 
severe. Patrol agents have to have wrought iron metal plates 
over their windshields because they keep on breaking them.
    Mr. Mica. California?
    Mr. Usrey. Yes, sir. It is sort of a unique situation, if 
you will, because we are seeing some decreases in violence in 
some of our major cities. Yet, as we increase the tension on 
the border, as we become more successful, we have created a 
situation where the drug traffickers themselves become more 
violent. That violence has flowed over into the California 
side.
    We have seen Border Patrol agents taken under sniper fire. 
We have seen an increased evidence of weapons in vehicles, and 
so forth. So we are seeing some violence associated with drug 
trafficking, even though overall the statistics out of San 
Diego show an improvement in the homicide rate.
    Mr. Mica. Texas?
    Mr. Castaneda. Yes, Mr. Chairman. Within the city limits of 
Eagle Pass, we have confronted several high-speed pursuit 
chases involving narcotics traffickers, endangering our local 
residents, public streets, and highways. I have heard reports 
of Border Patrol agents encountering armed and violent 
narcotics traffickers. So the tension is there. The situation 
is there. The narcotics continue to be there.
    Mr. Mica. My last question is to each of you. You heard 
today the problem we have with 23 Federal agencies and four 
departments, plus local and State efforts, in trying to 
coordinate these border activities. You also heard concerns 
from the panel about no one being in charge. How would you make 
this process and these activities of Federal agencies more 
effective? What can we do?
    I think we had testimony in here that, of course, the 
resources to local governments and the decrease in the Byrne 
grants affected you. But structurally and operationally, as far 
as the Federal agencies, how could we do a better job? We will 
start maybe in reverse order. Chief.
    Mr. Castaneda. As I closed my statement, Mr. Mica, we have 
an excellent relationship that I can attribute to a good 
working relationship with our Federal counterparts. However, I 
see an attitude of turf. This is nerve-racking, and also 
unhealthy for our efforts. I have heard from my officers--as I 
mentioned that I have officers assigned to the DEA and to the 
Office of Investigations of the U.S. Customs Service--where one 
agency is spearheading, for instance, a wiretap that requires a 
lot of man-hours and a lot of time, and being limited in staff. 
They are not bringing in DEA resources to assist them.
    I see this as very counter-productive. You know, certainly, 
somebody needs to be overseeing this. I liked the comment that 
the gentleman from California mentioned about the Mexicans 
bringing the truckload and bringing the Federal officers and 
lining them up and saying, ``We are going to bring in the 
military and ship you all out, if you do not do what we pay you 
to do.'' Basically, that is what we need to do, to call the 
shots.
    Sir, I do not know if you are the one that made the 
comment, but I wholeheartedly agree with that.
    Mr. Mica. Mr. Rodriguez.
    Mr. Rodriguez. There are turf wars. There is no doubt about 
it, Representative, as you know, from being in the Border 
Patrol. I was born and raised in Nogales, AZ. I am a local boy. 
But when it gets down to doing an operation, a case, I have to 
be the mediator. Because I am a local; I have to play. You 
know, these people that come in and head up these eight Federal 
agencies, they see me coming, and they know what I am going to 
be asking. I am going to be asking for their help. And I am not 
going to leave them until they give me their help.
    Some of them do not like me coming around. The thing is, I 
am not going to protect my community and my officers with turf 
wars. The only way we are going to put bad people in jail is by 
working together, which is what we have been doing. Operation 
Cebias with the HIDTA initiatives is working. We are talking to 
each other. We are co-located, which we never were, with the 
U.S. Customs Office on Enforcement. It is improving, but there 
is a lot of work to be done.
    Mr. Mica. Mr. Usrey.
    Mr. Usrey. Thank you. And I certainly share the concerns of 
the committee, General McCaffrey and my cohorts here. But I 
would like to briefly discuss operation COBIJA an initiative 
that was touched on. That operation brings together the 
Federal, State, and local agencies in a coordinated fashion, 
through the use of regional coordination centers. These 
regional coordination centers--and they are located in the 
counties of San Diego, Imperial Valley, in Arizona and New 
Mexico--are under the joint supervision of the Border Patrol 
and the local sheriffs.
    Under that umbrella, everyone comes to lay out their plans 
and to coordinate operations. An interim step, but it seems to 
be a step in the right direction. I think the officers out 
there want to do the right thing and they want to be 
operationally effective. Sometimes turf issues come from areas 
higher than the officers on the street who are out there doing 
the job.
    The point that was made by Lieutenant Rodriguez was very 
good. The State and local officers in leadership along the 
border, play a very important role as mediators. They are able 
to come to a HIDTA executive committee--and Representative 
Reyes has sat on those committees--and mediate and bring 
everyone to a common purpose. It is awfully hard to have 
disagreements among the Federal agencies in front of their 
State and local counterparts. I think that is a very positive 
influence, and has worked well as a start toward this area of 
coordination and mediation.
    Mr. Mica. Thank you. Mr. Reyes.
    Mr. Reyes. Thank you, Mr. Chairman. I want to start by 
thanking all three gentlemen for being here, and for the job 
that you do and the role that you play on the front lines of 
the Nation's war on drugs.
    I want to ask you to comment on a number of different 
areas. The first one is, as Mr. Usrey had mentioned I 
definitely appreciate the role that you play in funding the 
HIDTAs. The question that I asked the General earlier, in terms 
of the number of HIDTAs that exist today versus the initial 
five that we started out with in 1992, can I get an opinion 
from you in terms of my comment that if everything is a 
priority then nothing becomes a priority?
    What is your perspective of the Southwest border being the 
focal point in terms of this Nation's war on drugs, and then 
not getting, perhaps, the attention or the support for those 
five HIDTAs?
    Mr. Usrey. Thank you. I do share that concern. I think it 
is shared by all of us particularly, the original five gateway 
HIDTAs. It was clear that these HIDTAs were not only attacking 
the drug trafficking problem in their area, but also they had 
an impact outside that area.
    And, while I think that there is a compliment there 
someplace that the HIDTA system must be working, because people 
want to copy it and have more HIDTAs throughout the country--I 
think that is probably a positive thing--we have been very 
concerned that it would take away from the prioritization and 
the resources to the border.
    I will say that we have received increases. As late as the 
Emergency Appropriations bill, we received additional money for 
the Southwest border. So it has not been a totally bleak 
picture, but basically one of level funding.
    The other thing that has impacted us, and General McCaffrey 
addressed it, is that some of the discretion has been taken 
away from ONDCP. So where there is a necessity for additional 
resources--say, in El Paso and New Mexico, or any one of the 
other areas--there has been very little discretionary money. 
And some of that new money has been prioritized prior to the 
time it reaches ONDCP. I think has created some difficulty.
    Mr. Reyes. In your role as the director or overseer of the 
five HIDTAs for the Southwest border, what is the process in 
terms of funding those within the money that you get for the 
Southwest border? I ask that question because we have all heard 
the testimony, and I have recently seen the statistics from 
EPIC about the West Texas HIDTA in El Paso and the west Texas-
southern New Mexico area being the major entry point for 
narcotics; yet it ranks, I believe, last in funding for the 
Southwest border HIDTAs. Can you explain to us how that process 
works?
    Mr. Usrey. ONDCP is the funding mechanism, and they make 
the funding decisions; of course, in accordance with the 
guidance provided to them by Congress. And that, I think, is a 
direct result, as I mentioned, of the lack of discretionary 
funds; that when there is a need, such as in El Paso, there is 
no money there that can be programmatically provided. Instead, 
it has taken exterior efforts to identify money to put into the 
program earmarked for particular HIDTAs.
    My role is as an advocate. I try to look at all the 
programs along the border, each one of the five regional 
HIDTAs; determine where the needs are; and then go forth and 
try and advocate for additional resources, both to ONDCP, the 
congressional Representatives and so forth.
    Mr. Reyes. Then are you in agreement that the West Texas 
HIDTA faces the largest challenge, in terms of the statistics, 
and has the lowest funding of the five HIDTAs?
    Mr. Usrey. It is like talking about my five children here. 
I think that they all have individual problems. They all have 
individual needs. It is hard to say that any one of them needs 
more resources than any of the others. But El Paso certainly 
has a major problem. They have continued to have a problem. 
They have been very successful in the development of some of 
their initiatives which, you know, are really successful and 
the types of initiatives that we try to duplicate along the 
border. And yet they are the lowest funded, and definitely 
deserve more money.
    Mr. Reyes. Thank you. In the context for the other two 
gentlemen, explain to us your opinion, or your concerns. 
Because often in Congress, we hear a lot about the corruption 
that comes with drug trafficking. Can you give us an opinion on 
what you have seen there at the front lines regarding 
corruption?
    Mr. Rodriguez. Corruption on the United States or Mexican 
side?
    Mr. Reyes. Well, in general. Because I know it exists on 
both sides.
    Mr. Rodriguez. We are one of the few HIDTA initiatives to 
have actual corruption agents from the FBI corruption squad 
assigned to the Metro Task Force. We are real fortunate to work 
with them, because our source was involved directly with the 
actual arrests and prosecution of four INS agents down in 
Nogales, AZ.
    There is a corruption issue. There is a corruption element 
there. There is a price that we all pay in law enforcement when 
that happens. But we have to learn how to deal with that, and 
foresee and act on those aggressions toward our unity, I think, 
in fighting drugs.
    It is a large money. We seized about $300,000 in that 
operation. But the FBI does have a corruption squad in southern 
Arizona to combat that.
    On the Mexican side, we do have working relationships with 
the Mexican authorities in Nogales, AZ. We do have a working 
relationship with the consulate in Nogales, AZ. But we are 
aware, I am aware, the agents are aware, of the corruption 
issue that is in Mexico. We take it on a case-by-case basis.
    Based on the homicide of Border Patrol agent Kurpnick last 
year, they were very helpful. Groupo Vetto was very helpful in 
apprehending one suspect in Nogales, Sonora. The FBI was very 
successful in extraditing two of those suspects, and they just 
prosecuted one of the smugglers that was involved in that 
assassination.
    Mr. Reyes. OK, thank you. Chief.
    Mr. Castaneda. As you know, corruption wherever it is--
local, Federal--it always leaves a black eye on police 
personnel. In 1997, when I came here and reported to a similar 
question of yours, we had several officers within my department 
that were suspected of that. I am glad to report that those 
officers are no longer with us.
    It is something that we keep an eye on, on things of that 
nature, because in the narcotics trade, as my colleague 
Lieutenant Rodriguez mentioned, large sums of moneys exchange 
hands, and the integrity level of the individual engaged in the 
counteroffensive has to be real high. So it is something that 
is always under the watchful eye.
    As far as my Mexican counterparts, recently in late July, I 
was a special guest to President Zedillo in Mexico City. We had 
a private audience with Mr. Medrazo. As General McCaffrey was 
reporting, Mexico was reporting to us at the time of their 
efforts to implement basic things that we usually do when we 
recruit people: polygraph, background investigations, urine 
analysis. I am talking about their Federal preventative police 
that they are trying to get off the ground.
    I left with very mixed emotions, along with my colleagues 
that were present at the seminar. Nevertheless, it is a clear 
indication that Mexico is trying to remedy a problem they 
recognize that they have been having in their back yard for so 
many years. Now they are trying to clean it up, in order for 
them to maintain good grace with us.
    Mexico is one of our biggest trading partners. Certainly, 
it is something that pressure needs to continue to be applied 
by our end for them to be doing this reform in their policing.
    Mr. Reyes. Thank you, Mr. Chairman.
    Mr. Mica. Thank you.
    Mr. Bilbray.
    Mr. Bilbray. Thank you. I appreciate the testimony. I want 
to just clarify one thing, though. I think too many people in 
the United States miss the point that Mexico is not fighting 
corruption, or any issue short of their own national 
sovereignty. And I want to say that to the chairman, that we 
have just got to understand that Mexico right now is under the 
greatest threat to their national sovereignty. It dwarfs 
General Scott marching into Mexico City.
    And so it really is not just a PR thing. It is the fact 
that an elected official, like the Governor of Baja, lives in 
fear, not just for himself, but his family and anyone else he 
knows. It's a matter of survival. And they are fighting for 
their national sovereignty. And I think we need to remember 
that.
    The corruption issue, though, when we talk about it, I 
worry that Americans talk about corruption and think about the 
dollar signs, and do not realize that the ``mordida'' is only 
half of the issue. The other half, at least on Mexico's side, 
is the assassination attempts and rates.
    There is a term in Mexico, and I am sure my colleague can 
articulate it appropriately, that is basically ``Lead or 
Gold.'' Do you want gold, or lead? Do you want to get paid off, 
or do you want to be killed? And we have seen that extensively, 
have we not, south of the border?
    Do you want to talk in public about our assassinations 
north of the border? Which is a concern that I have. Mr. 
Chairman, I just want to point out a mile north of where I live 
we have had over three assassinations along the Silver Strand 
by hired hit-people. It is something that I think that we need 
to be very concerned about; not just because of Mexico.
    I would ask you this, gentlemen. I got a lot of credit for 
asking for an investigation in San Diego, that someone said, 
``Well, did you have inside information about corruption?'' 
when I asked about it. It was not that; it was just that when 
someone has to work in close proximity to an environment where 
there is so much corruption, so much violence, so many 
problems, and so much money, I think it is rather naive, if not 
ridiculous, for us in the United States to think that 
international border, that artificial line, is going to stop 
that from crossing into our infrastructure.
    I am just worried that if we do not wake up to the fact 
that the violence side of the corruption does not end up with 
our agents: with the low morale, or the problem of morale, of 
not having the infrastructure; the morale of releasing people 
that they wish they did not have to release, because there are 
not enough jails; added into that, the huge amount of money 
involved; and then, if we get to the next step, the threat of 
violence, not just to the agents and the people on the border, 
but the fact that these assassins are working in the United 
States.
    Do you guys want to comment on that aspect of it, and try 
to educate this body about just how great that potential is and 
how it is so unique to the border region?
    Mr. Castaneda. I would like to lead off on that, because in 
my area we have witnessed several assassinations on the Mexican 
side. One of the unique cultural aspects of living on the 
border is the enmeshing of the families. I have a lot of family 
in Mexico, myself, and as Mr. Reyes will attest. It makes it 
hard to penetrate narcotics rings. We have officers that are 
involved with families on the Mexican side.
    But Mexico, like you mentioned, Congressman, ``Plata O 
Oro,'' you know, meaning ``Bullets or Gold.'' It is so 
prevalent and so very real, and has filtered into this country. 
I do not have the intelligence to put the numbers and say how 
many of these murders that have occurred on this side of the 
border originated from orders from Mexico. Nevertheless, it is 
an issue that needs to be dealt with and needs to have a very 
serious look.
    Mr. Rodriguez. In my area, it is along the same lines. But 
we, as citizens of the United States, should be vocal, and not 
seeing their actoins 2 miles away from the border as 
acceptable. The term in Nogales, AZ, in translation, is ``The 
Settling of Accounts.'' They settle accounts, all accounts. It 
does not matter who you are, or from where you are.
    We have been fortunate that we live on the border. I also 
am aware. I know the threat. I keep it away from my family. At 
the same time, I will never answer the door without knowing who 
is there.
    Mr. Usrey. I would certainly agree with my fellow panel 
members here and the observations you have made. I have been in 
law enforcement for over 30 years, and I thank God no one ever 
put a gun to my head and said, ``Here, take this $100,000, or I 
am going to blow your brains away, and I am also going to 
assassinate your family.'' I have a lot of sympathy for the 
individuals who find themselves in that situation. Irrespective 
of how they got there, that has to be a very, very difficult 
situation.
    We have had a number of threats that have been made, 
particularly against Federal law enforcement personnel on our 
side of the border. For the most part, those are designed as 
retribution for doing a good job. The key officers and agents 
that are out there have been identified in the forefront of 
some of the efforts, as Lieutenant Rodriguez said, and that is 
of continued concern.
    So I concur with your observation that is a potential that 
we have to look forward to, and not readily, it is something 
that could happen. We do know that drug traffickers use what 
works. And if it works in Mexico, I would be very concerned 
that they would try those same tactics here in the United 
States.
    Mr. Bilbray. I only want to point out that there was 1 
year, Mr. Chairman, where we lost nine police officers in 
Tijuana who were assassinated. A police chief was assassinated 
and two Federal prosecutors were assassinated. And in fact, the 
police chief announced that he was offered a bribe, and went 
public that he was turning down the bribe, and within 42 hours 
he was dead. That is how brazen it is. And so, as we confront 
our Mexican colleagues, we have also got to realize how 
sensitive it is.
    Our challenge is to make sure that we do not allow this to 
happen--this cult of corruption. There was a culture of 
corruption that was very small. And it was not that; it was 
like giving public officials tips, the ``mordida.'' The trouble 
is, that allowed the gap for this huge amount of money and 
violence to go into the Mexican culture and drive this hideous 
problem that is going on now. Our challenge is to make sure 
that culture of corruption does not transfer across the border. 
And it is, to some degree. It is a real challenge that we have 
to confront.
    I wish that we would look at all of the people that are 
dying on both sides of the border on this issue, and be as much 
outraged, and put the resources in along our ``frontiera'' to 
the south as we would in Europe. You know, we get all fired up 
about how the media cover that. It is really interesting how 
this has not been something that is covered in the U.S. media, 
and it has not been something we have discussed on our side. 
Remember, the bullets and the money that are used in this 
corruption are coming from our side of the border.
    Mr. Mica. I thank the gentleman for his comments and 
questions.
    I want to thank each of the panelists for their 
participation today. Hopefully, through your testimony and your 
recommendations, we can do a better job in coordinating our 
Federal efforts, working both with the HIDTAs and local 
governments. Again, we thank you, and we will excuse you at 
this time.
    Mr. Rodriguez. Thank you, Mr. Chairman.
    Mr. Mica. I will call our third panel. Our third panel 
today consists of four different witnesses. The first one is 
Mr. Richard Fiano. He is the Chief of Operations of the Drug 
Enforcement Administration and with the Department of Justice. 
Next, we have Brigadier General Dorian Anderson, Commander of 
the Joint Task Force Six with the Department of Defense. We 
have also Mr. Michael Pearson, Executive Associate for Field 
Operations of INS. I believe Mr. Pearson is going to also be 
accompanied by Mr. Gus De La Vina, Director of the U.S. Border 
Patrol. We have Mr. Sam Banks, Deputy Commissioner of the U.S. 
Customs Service with the Department of the Treasury.
    As I indicated to our previous witnesses this morning, this 
is an investigations and oversight subcommittee of Congress. We 
do swear in our witnesses. We also ask, if you have any lengthy 
statements or documents you would like to be part of the 
record, that you do summarize your remarks and present 5 
minutes of oral testimony. We will, by unanimous consent, 
submit those lengthy written statements or documents to the 
record. With that, I would like to ask each of those who are 
going to testify to stand and be sworn.
    [Witnesses sworn.]
    Mr. Mica. This is answered in the affirmative. I would like 
to welcome our panelists and participants. First, I will 
recognize Mr. Richard Fiano, Chief of Operations of DEA with 
the Department of Justice. Welcome, sir, and you are 
recognized.

    STATEMENTS OF RICHARD FIANO, CHIEF OF OPERATIONS, DRUG 
   ENFORCEMENT ADMINISTRATION, DEPARTMENT OF JUSTICE; DORIAN 
   ANDERSON, COMMANDER, JOINT TASK FORCE SIX, DEPARTMENT OF 
    DEFENSE; MICHAEL PEARSON, EXECUTIVE ASSOCIATE FOR FIELD 
OPERATIONS, IMMIGRATION AND NATURALIZATION SERVICE, DEPARTMENT 
 OF JUSTICE, ACCOMPANIED BY GUS DE LA VINA, CHIEF, U.S. BORDER 
  PATROL; AND SAMUEL BANKS, DEPUTY COMMISSIONER, U.S. CUSTOMS 
              SERVICE, DEPARTMENT OF THE TREASURY

    Mr. Fiano. Thank you, Mr. Chairman. Chairman Mica and 
members of the subcommittee, I appreciate the opportunity to 
appear today at this hearing regarding the drug threat along 
the Southwest border. I would first like to thank you and the 
subcommittee for your continued support of the DEA and your 
overall support of drug law enforcement. I have submitted and 
offer my complete statement for the record.
    Mr. Mica. Without objection, that will be made part of the 
record.
    Mr. Fiano. I think it is extremely appropriate to focus on 
the drug threat along the Southwest border. As you mentioned in 
your opening statement, this past Wednesday the DEA announced 
the conclusion of a 2-year international investigation which 
culminated in the arrest of 93 individuals linked to the Amado 
Carillo Fuentes organization headquartered in Cancun, Mexico.
    The investigation, known as ``Operation Impunity,'' was a 
multi-jurisdictional, multi-agency investigation conducted by 
DEA, the FBI, and the U.S. Customs Service, and a host of State 
and local law enforcement agencies throughout the United 
States. The investigation ultimately culminated in the 
dismantling of an entire criminal drug trafficking organization 
and the seizure of over 12,000 kilos of coke, a half a kilogram 
of heroin, 4,000 pounds of marijuana, and over $19 million in 
U.S. currency and assets. The operation demonstrates an 
extensive and coordinated and cooperative effort on the part of 
U.S. law enforcement, which exacted a devastating blow against 
one of the largest Mexican drug trafficking organizations 
operating along the Southwest border.
    As you are aware, DEA's primary mission is to target the 
highest levels of international trafficking organizations 
operating today. Due to the ever increasing legitimate cross-
border traffic and commerce between the United States and 
Mexico, several international organized crime groups have 
established elaborate smuggling infrastructures on both sides 
of the Southwest border.
    Furthermore, it has long been established that in addition 
to drug trafficking these international criminal organizations 
spawn violence, corruption, and intimidation that threaten the 
safety and stability of surrounding border towns, cities, and 
States. The Southwest border remains your major point of entry 
for approximately 70 percent of all the illicit drugs smuggled 
into the United States. that are ultimately transported to and 
sold in our neighborhoods across the country.
    In response to this continued threat along the Southwest 
border, DEA has established several initiatives which employ a 
multi-prong strategy which utilizes and combines law 
enforcement operations, intelligence operations, and provides 
for law enforcement assistance in order to achieve success in 
combating criminal drug trafficking organizations operating 
along the Southwest border.
    The objective of these initiatives is to disrupt and 
ultimately dismantle criminal organizations that smuggle 
illicit drugs into the United States, by linking Federal, 
State, and local investigations domestically and mobilizing 
multilateral enforcement efforts abroad. In order to combat 
drug production and trafficking networks operating along the 
United States-Mexican border DEA, in concert with other Federal 
agencies, established the Southwest Border Initiative, an 
integrated, coordinated law enforcement effort designed to 
attack the command and control structure of organized criminal 
enterprise operations associated with Mexican drug trafficking 
organizations. The strategy focuses on intelligence and 
enforcement efforts, targeting distribution systems within the 
United States, and directs resources toward the disruption of 
those principal drug trafficking organizations operating across 
the border.
    DEA, in cooperation with other Federal, State, and local 
law enforcement agencies, is focusing increased intelligence, 
technical resources, and investigative expertise on the major 
Mexican drug trafficking organizations responsible for 
smuggling vast quantities of cocaine, heroin, marijuana, and 
methamphetamines across the border.
    Apart from this effort, DEA and the FBI also provide 
operational planning, intelligence, and training to the 
Government of Mexico law enforcement authorities, to strengthen 
their capacity to collect drug intelligence, attack production 
capabilities, conduct trans-shipment interdiction investigation 
and asset seizures, and prosecute key traffickers.
    The Southwest border strategy targets specific Mexican drug 
trafficking organizations operating across the border, and 
attacks their command and control infrastructures, wherever 
they operate. These organizations routinely utilize violence as 
well as sophisticated encrypted telecommunication methods in 
order to protect their organizations' illicit activity. The 
Southwest border strategy includes a joint DEA, FBI, U.S. 
Customs, and DOJ projects that resides within DEA's Special 
Operations Division.
    The Special Operations Division is a joint national 
coordinating and support entity comprised of agents, analysts, 
and prosecutors from DOJ, Customs, the FBI, and DEA. Its 
mission is to coordinate and support regional and national 
criminal investigations and prosecutions against trafficking 
organizations that most threaten the United States.
    As presently configured, we have sections in the Special 
Operations Division, two sections that target Southwest border 
major Mexican drug trafficking organizations, one that targets 
methamphetamines, one that targets Colombian trafficking 
organizations, and one that targets heroin investigations in 
Europe and the Middle East.
    The intelligence collection process is critical to the 
interdiction of drugs. In response to the DEA, the Department 
of State established a joint information collection center 
program managed and operated by the El Paso Intelligence 
Center. The program is a multilateral, multi-agency effort 
designed to collect and analyze data related to the trafficking 
of drugs with international origin and transshipment points.
    Domestically, highway interdiction programs are central to 
drug enforcement, especially on the Southwest border, since a 
vast number of seizures occur at checkpoint stops within 150 
miles of the border in Arizona, California, New Mexico, and 
Texas. The highway interdiction program is promoted and 
monitored by the El Paso Intelligence Center, but carried out 
by State and local law enforcement officials. The operation is 
active along the highways and interstates most often used by 
drug organizations to move drugs north and east and illicit 
money south and west.
    Despite our many efforts and successes in identifying and 
apprehending the leadership and members of these international 
drug trafficking organizations, too often these drug lords are 
not apprehended by our international counterparts. Even if they 
are arrested, justice is seldom carried out which fits the 
magnitude of their crimes.
    The DEA, however, continues to work bilaterally with our 
law enforcement counterparts in Mexico, with the hope that our 
efforts will result in successfully diminishing these criminal 
organizations' ability to utilize the Southwest border.
    Mr. Mica. If you could, begin to conclude here.
    Mr. Fiano. I will, sir.
    Mr. Mica. We are going to have a series of votes.
    Mr. Fiano. Yes, sir. Perhaps the recent arrest of 
``Operation Impunity'' defendant Jaime Aguillar Gastelum in 
Reynoso, Mexico by Mexican authorities is indicative of the 
GOM's future commitment to such joint ventures. However, 
continuing reports of corruption and the rapidly growing power 
and influence of the major organized criminal groups in Mexico 
cause great concern about the long-term prospects for success.
    DEA recognizes the drug threat along the Southwest border 
diminishes the quality of life of our citizens across the 
Nation. We are hopeful that new initiatives in our cooperative 
efforts with other Federal, State, and local law enforcement 
agencies will enhance our ability to combat these drug 
trafficking groups operating along the Southwest border, and 
have more successes such as ``Operation Impunity.'' Thank you.
    [The prepared statement of Mr. Fiano follows:]
    [GRAPHIC] [TIFF OMITTED] T6078.047
    
    [GRAPHIC] [TIFF OMITTED] T6078.048
    
    [GRAPHIC] [TIFF OMITTED] T6078.049
    
    [GRAPHIC] [TIFF OMITTED] T6078.050
    
    [GRAPHIC] [TIFF OMITTED] T6078.051
    
    [GRAPHIC] [TIFF OMITTED] T6078.052
    
    [GRAPHIC] [TIFF OMITTED] T6078.053
    
    [GRAPHIC] [TIFF OMITTED] T6078.054
    
    [GRAPHIC] [TIFF OMITTED] T6078.055
    
    [GRAPHIC] [TIFF OMITTED] T6078.056
    
    [GRAPHIC] [TIFF OMITTED] T6078.057
    
    [GRAPHIC] [TIFF OMITTED] T6078.058
    
    [GRAPHIC] [TIFF OMITTED] T6078.059
    
    Mr. Mica. Thank you. I would like to recognize General 
Anderson.
    General Anderson. Mr. Chairman, and distinguished members 
of the subcommittee, it is a privilege to appear before you 
today. I have prepared a statement to be entered into the 
record.
    Mr. Mica. Without objection, your entire statement will be 
made part of the record. Proceed, please.
    General Anderson. Joint Task Force Six represents the 
Department of Defense Title 10 commitment to provide military 
capabilities in support of domestic law enforcement agencies' 
efforts against the flow of the illegal drugs into the United 
States. Joint Task Force Six does not initiate counterdrug 
operations. Instead, we support the operations of competent and 
professional law enforcement agencies. We take pride in 
providing that support.
    My official statement provided for the record details my 
mission. There are three words, however, in the mission 
statement that I would like to highlight: support, integrate, 
and synchronize.
    I emphasize the word ``support.'' With domestic law 
enforcement agencies in the lead, military units provide a 
capability that supports their efforts. Joint Task Force Six 
provides support in three categories: operational, engineering, 
and general support.
    Operational support includes ground reconnaissance and 
sensors, aviation reconnaissance, medical evacuation, and 
transportation. Engineering consists of assessments, roads, 
fences, barriers, border lights, shooting ranges, and 
facilities. General support includes intelligence analysts, 
mobile training teams, intelligence architectural assessments, 
maintenance and technology missions.
    In the fiscal year 1999, we will execute a total of 413 
missions in support of law enforcement operations, such as 
``White Shark,'' ``Rio Grande,'' ``Hold the Line,'' and ``Gulf 
Shield.'' Our priority of effort is the Southwest border. The 
majority of my operations directorate focuses its efforts on 
support to law enforcement agencies and High Intensity Drug 
Trafficking Areas along the Southwest border.
    In conclusion, Joint Task Force Six provides Department of 
Defense capabilities from the Army, Navy, Air Force, and Marine 
Corps, active duty, reserve, and National Guard, in support of 
law enforcement agencies throughout the United States. The 
multi-service, multi-agency nature of our support is 
challenging, complex, and necessary.
    Thank you for giving me the opportunity to speak before you 
today. I look forward to your questions.
    [The prepared statement of General Anderson follows:]
    [GRAPHIC] [TIFF OMITTED] T6078.060
    
    [GRAPHIC] [TIFF OMITTED] T6078.061
    
    [GRAPHIC] [TIFF OMITTED] T6078.062
    
    [GRAPHIC] [TIFF OMITTED] T6078.063
    
    [GRAPHIC] [TIFF OMITTED] T6078.064
    
    [GRAPHIC] [TIFF OMITTED] T6078.065
    
    [GRAPHIC] [TIFF OMITTED] T6078.066
    
    [GRAPHIC] [TIFF OMITTED] T6078.067
    
    Mr. Mica. Thank you, and we will suspend questions until we 
have heard from all witnesses.
    Mr. Michael Pearson, with INS.
    Mr. Pearson. Mr. Chairman, thank you for the opportunity to 
appear before you today to discuss illegal immigration and drug 
smuggling on the Southwest border. I am accompanied by Gus De 
La Vina, Chief of the U.S. Border Patrol.
    I want to assure you that the Immigration and 
Naturalization Service shares your deep concern about the 
impact these increasingly intertwined criminal activities have 
on the quality of life not just along the frontier with Mexico, 
but in communities across the country.
    I have provided a written statement that details INS' role 
in drug interdiction, our strategic approach to border 
management, and how it strengthens our efforts to counter 
illegal immigration and drug trafficking, and how these efforts 
are fortified further through cooperation with other Federal, 
State, and local agencies.
    Let me summarize the major points. The primary enforcement 
mission of INS is to prevent the unlawful entry of migrants 
into the United States, remove those who are here illegally, 
and ensure that all those who enter the country at land, air, 
and sea ports are authorized to do so.
    Carrying out these responsibilities has put INS on the 
front line of our Nation's fight against drugs. INS' vital role 
in our national counterdrug effort is attributable to changing 
patterns in both narcotics smuggling and illegal migration.
    In response to the increased complexity of illegal 
immigration, INS developed an innovative multi-year strategy to 
strengthen enforcement of the Nation's immigration laws along 
the Southwest border. The strategy treats the entire 2,000-mile 
border as a single seamless entity integrating enforcement 
activities between the ports of entry with those taking place 
at the ports.
    Under the strategy, we deployed additional personnel to 
targeted areas, backing them with force-multiplying technology 
such as infrared scopes, and underground sensors, and 
infrastructure improvements. The strategy would not be as 
successful as it has been without one vital element: the 
cooperation and coordination with other Federal agencies, as 
well as State and local enforcement.
    Our comprehensive border control strategy has produced 
impressive results in both deterring illegal immigration and 
combatting drug smuggling. In fiscal year 1998, for example, 
apprehensions of undocumented migrants in the San Diego sector, 
which at one time accounted for nearly half of all 
apprehensions nationwide, fell to an 18-year low. Thus far this 
fiscal year, Border Patrol agents and immigration inspectors 
working along the Southwest border seized more than 1 million 
pounds of drugs destined for American streets.
    Simply seizing record amounts of drugs is not enough. We 
need to dismantle the criminal networks involved in drug 
trafficking. This is where our cooperation with other agencies 
is critical. Both at and between ports of entry, we work 
closely with the Drug Enforcement Administration [DEA], U.S. 
Customs, and others, to ensure that drug traffickers are 
prosecuted to the fullest extent of the law.
    For example, in two separate incidents this week, Border 
Patrol agents in McAllen, TX discovered more than a ton of 
marijuana hidden in a compartment of a trailer they were 
inspecting, and 1,400 pounds of cocaine in a truckload of 
rotten watermelons. The drugs, valued at a total of more than 
$46 million, were turned over to DEA, which will develop the 
case against the drivers and others who may have been involved.
    I am proud of the role INS personnel play in combating the 
scourge of illegal drugs. It is a role they have embraced, even 
though, in carrying it out, they often place themselves at 
great personal risk. For example, last year alone, six Border 
Patrol agents were killed in the line of duty, three of whom 
were killed by drug smugglers or by individuals under the 
influence of drugs.
    We have made great strides in protecting our borders 
against illegal immigration and drug smuggling, but our efforts 
need to be strengthened. I look forward to working with 
Congress to achieve this. Thank you for the opportunity to 
testify before the subcommittee. I will be pleased to answer 
any questions.
    [The prepared statement of Mr. Pearson follows:]
    [GRAPHIC] [TIFF OMITTED] T6078.068
    
    [GRAPHIC] [TIFF OMITTED] T6078.069
    
    [GRAPHIC] [TIFF OMITTED] T6078.070
    
    [GRAPHIC] [TIFF OMITTED] T6078.071
    
    [GRAPHIC] [TIFF OMITTED] T6078.072
    
    [GRAPHIC] [TIFF OMITTED] T6078.073
    
    [GRAPHIC] [TIFF OMITTED] T6078.074
    
    [GRAPHIC] [TIFF OMITTED] T6078.075
    
    [GRAPHIC] [TIFF OMITTED] T6078.076
    
    [GRAPHIC] [TIFF OMITTED] T6078.077
    
    [GRAPHIC] [TIFF OMITTED] T6078.078
    
    [GRAPHIC] [TIFF OMITTED] T6078.079
    
    [GRAPHIC] [TIFF OMITTED] T6078.080
    
    [GRAPHIC] [TIFF OMITTED] T6078.081
    
    [GRAPHIC] [TIFF OMITTED] T6078.082
    
    [GRAPHIC] [TIFF OMITTED] T6078.083
    
    Mr. Mica. Thank you.
    Mr. Banks, how long is your statement?
    Mr. Banks. Very brief, Mr. Chairman.
    Mr. Mica. OK. You are recognized.
    Mr. Banks. Mr. Chairman and members of the committee, thank 
you for the opportunity to appear before you. Mr. Chairman, 
Commissioner Kelly asked me to personally thank you for your 
support, and to recognize your recent participation at the 
event we had for the B3 domed radar aircraft.
    U.S. Customs is responsible for enforcing the Nation's laws 
at our borders. We protect American industry from unfair 
competition, the public from unsafe foods. We even check for 
weapons of mass destruction. But our No. 1 enforcement priority 
is drugs and drug money. On a typical day, Customs officers 
seize 3,654 pounds of narcotics and $1.2 million in currency.
    Our primary focus on the narcotics effort is the southern 
tier of the United States and, specifically, the Southwest 
border. This job to ferret out drugs on our border with Mexico 
is huge: 278 million people, 86 million cars, 4 million trucks. 
Our work force has remained relatively stagnant in recent 
years, but narcotics seizures have continued to increase. This 
is because we have pursued a variety of initiatives.
    Two of the initiatives I would like to mention are the 
Border Coordination Initiative and our 5-year technology plan. 
The Border Coordination Initiative [BCI], was designed to 
improve coordination amongst the Federal law enforcement 
resources along our Southwest border; to give us a seamless 
process for moving these volumes of traffic through our ports, 
and to improve our interdiction efforts of narcotics, aliens, 
and other contraband.
    We in INS set out a very aggressive agenda to design how we 
would manage our ports, how we would link our tactical 
interdiction operations, how we would provide unified 
investigative and aviation support and enhance our integrity 
programs. BCI has been a force multiplier: Cocaine seizures are 
up 27 percent, marijuana by 23 percent, and heroin seizures by 
33 percent; in part, we believe, attributable to better 
integration of our enforcement efforts.
    We have doubled our controlled deliveries, which is when we 
take a seizure up the narcotics organization food chain. The 
Border Patrol has joined our tactical intelligence units along 
the border, and they recently told General McCaffrey it was one 
of the best resource investments they have made.
    Our technology plan for the southern tier, which Congress 
supported with funding last year, has placed eight large truck 
X-rays at our major commercial crossings along that Southwest 
border. We are now in the process of acquiring mobile truck x 
rays and mobile gamma ray systems that produce images of the 
contents and even show false walls in the containers--even into 
double-walled propane tankers.
    We are testing a variety of new technologies, such as a 
pulse fast neutron analysis. We are installing gamma ray 
imagers for rail cars and high-energy x ray systems to examine 
sea containers. This is coupled with a whole series of other 
hand-held and information technology systems that we have 
designed. We can do the narcotics work and not have to 
seriously impact traffic.
    With the support of the National Guard, we have loaned 
mobile x rays to help Border Patrol with special operations at 
their checkpoints. Our systems are designed to be multi-
purpose, so that they support more than one agency. They do not 
just look for narcotics, but they can also spot people that are 
hidden inside these rail cars that are coming in. They can even 
find radioactive materials inside these containers.
    Mr. Mica. Mr. Banks, I am going to cut you short, here.
    Mr. Banks. Yes, sir.
    Mr. Mica. There are four votes. We are going to recess the 
committee for 1 hour. We will come back at 1:40. If you have 
any comments at that point, we will finish at that juncture, 
and we will also have an opportunity for questions. The 
subcommittee is in recess.
    [Recess.]
    Mr. Mica. I would like to call the subcommittee back to 
order. When we concluded, Mr. Sam Banks, Deputy Commissioner of 
U.S. Customs, was testifying.
    Did you want to conclude, sir?
    Mr. Banks. Mr. Chairman, yes, I would like to very briefly.
    In addition to the Border Coordination Initiative, in 
addition to the technology piece that I talked about, the 
Commissioner of Customs chairs which is called the Interdiction 
Committee. It is the heads of all law enforcement agencies that 
are linked to drug interdiction. That committee is now engaged 
in developing a coordinated, fully integrated, multi-agency 
plan developed for what is called the ``arrival zone.'' It is 
really where the drugs first arrive into the United States, so 
it is heavily tied to the borders. This is being done in full 
support of ONDCP.
    As a first step to boost this level of inter-agency 
coordination, we are taking the Border Coordination Initiative 
and looking to integrate the activities of the Coast Guard, to 
integrate DEA more into it, to bring the State and local law 
enforcement agencies closer, and to link it with the high-
intensity drug trafficking centers.
    So this whole drug interdiction thing obviously is a 
difficult, complex job to do with the limited resources we 
have, but we believe we are continuing to make progress in 
having a united front to deal with it. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Banks follows:]
    [GRAPHIC] [TIFF OMITTED] T6078.084
    
    [GRAPHIC] [TIFF OMITTED] T6078.085
    
    [GRAPHIC] [TIFF OMITTED] T6078.086
    
    [GRAPHIC] [TIFF OMITTED] T6078.087
    
    [GRAPHIC] [TIFF OMITTED] T6078.088
    
    [GRAPHIC] [TIFF OMITTED] T6078.089
    
    [GRAPHIC] [TIFF OMITTED] T6078.090
    
    [GRAPHIC] [TIFF OMITTED] T6078.091
    
    [GRAPHIC] [TIFF OMITTED] T6078.092
    
    [GRAPHIC] [TIFF OMITTED] T6078.093
    
    [GRAPHIC] [TIFF OMITTED] T6078.094
    
    Mr. Mica. Thank you. I think we have heard from everyone 
now. Mr. De La Vina is available for questions. You did not 
have an opening statement.
    General Anderson, when we were looking at the operation 
along the border, we were concerned about reports we have had 
about this organization, turf wars, lack of inter-agency 
cooperation. How would you describe the situation now, as far 
as improvement since January of this year, in September?
    General Anderson. Yes, sir. I would like to address that. 
Being in JTF-6 and primarily responsible for providing support, 
we are actually in a very good seat to have an objective view 
of the cooperation between the agencies, since we touch almost 
every one of those agencies in executing our missions.
    I will tell you, since I last talked to you and today, I 
have seen a great deal of cooperation through, as an example, 
the different HIDTAs. We have what I call the command presence 
program, where senior officials from my organization go out and 
visit the HIDTAs. We visit the intelligence analysts where they 
are. We visit every one of our missions. We talk to those that 
we are providing support for.
    What we are finding is that many of the law enforcement 
agencies, local, State, and Federal, are all on the same sheet 
of music for those types of operations. From my point of view, 
we have very good cooperation between the agencies.
    Mr. Mica. Well, the drug czar testified just a short time 
ago that he still felt that there was not a sufficient point of 
contact, or someone in charge, to help coordinate these 
activities. We have the HIDTA structure, we have the JTF 
structure, and 23 agencies in four departments. If you were to 
restructure or assign someone with full responsibility for 
coordinating, how would you structure that, with all of these 
folks in play and agencies and activities, General Anderson?
    General Anderson. First, I would like to respond that my 
mission is the same, and that would be to provide the support 
but not anticipate----
    Mr. Mica. Right. But you see it from your own perspective, 
and it is hard. You work with these folks, I know, but we 
appreciate some candor in this and some recommendations. Maybe 
we can help structure this a little bit better.
    General Anderson. I think the idea of what you can actually 
gain, what you are really going to be able to gain, I believe 
it is going to be found in the head of a coordinator first. I 
do not believe that restructuring, a total restructure will 
answer the most impending problem that we have right now. I 
think the cooperative approach will in fact, and is answering 
the problem right now.
    Mr. Mica. The drug czar also seemed to think that the 
Border Patrol should take a more active part in leading this 
effort.
    Mr. Pearson, or Mr. De La Vina, did you want to comment?
    Mr. De La Vina. Yes, Mr. Chairman. You know, looking at it 
from a logical perspective, there are basically three ways to 
bring drugs in. That is through sea, through land ports, and we 
are looking at the land port entries. What we are looking at is 
Customs and INS pretty much have the control of the ports of 
entry. We have between the ports of entry.
    We have the largest personnel patrolling the border, which 
is the U.S. Border Patrol. We are seizing a tremendous amount 
of drugs. We are close to 1 million pounds of marijuana. We are 
participating with the Customs effort at the ports of entry, as 
well as with our own agency in the POEs with the inspections.
    Customs has much control of that. We are trying hard to 
make this work. We can control, or at least make a huge impact, 
on narcotics between the POEs. Our cooperation with the ports 
of entry is beginning to solidify, and that is beginning to 
work. So we will be participating more. We are looking at more 
intelligence. We are looking at more liaison. Hopefully, we 
will have a better control of ports of entry as well as between 
POEs.
    Mr. Mica. Now, before this hearing, the drug czar said he 
called folks together to prepare for this hearing, or at least 
to update the drug czar and his staff on what was going on. 
Prior to that occasion, how often have you been in contact with 
the drug czar's office, Mr. De La Vina?
    Mr. De La Vina. We work periodically with him.
    Mr. Mica. Do they call a meeting from time to time, a 
quarterly meeting, monthly meeting, weekly?
    Mr. De La Vina. At the field level, we do not have as much 
contact with the ONDCP, but at the national level, we do. Mr. 
Pearson participates with that, so I will pass that to him.
    Mr. Mica. Wait. Is it important that we have increased 
contact, participation, at the field level? It is nice for 
these people in Washington to meet, but the actual activity is 
out there at the border. Is this something that is lacking? 
Then we have the HIDTA structure and the JTF structure. Are 
there adequate integration and meetings and coordination? What 
is lacking? Just direction?
    Mr. De La Vina. I think, first of all, the HIDTA. That is 
much our local contacts working at the field levels. At the 
national level, that works for policy and direction.
    Mr. Mica. Everyone participates in the HIDTA?
    Mr. De La Vina. Yes, correct, sir.
    Mr. Mica. Do they have a chair of the HIDTA that is elected 
among those?
    Mr. De La Vina. That is correct. Our chief patrol agents 
participate in that.
    Mr. Mica. Is everyone meeting and then going their own way? 
Is that part of the problem?
    Mr. De La Vina. I think part of the problem is the lack of 
coordination with the intelligence that could be forthcoming. 
Out of the million pounds of marijuana that we have seized, 
over 20,000 pounds of cocaine, most of the Border Patrol's 
interdictions are cold interdictions. They are not based on 
intelligence. We are out on the line.
    Mr. Mica. Did you say ``cold?''
    Mr. De La Vina. ``Cold.''
    Mr. Mica. OK.
    Mr. De La Vina. In other words, no----
    Mr. Mica. Not based on intelligence.
    Mr. De La Vina. That is correct. So that would be extremely 
helpful for a coordinating element, if we could have a heads-up 
as to either what is coming through the checkpoints or what is 
coming through the line. But at the present time, all of our 
seizures--the majority of our seizures, and I am talking about 
close to 98 percent of our seizures--are cold; men and women 
that are out there in the U.S. Border Patrol are seizing the 
narcotics without any prior information, just based on 
location.
    Mr. Reyes. Mr. Chairman, if you will yield for a moment?
    Mr. Mica. Go ahead.
    Mr. Reyes. I think it would be beneficial for you to 
understand, if Mr. De La Vina would explain to you, the chain 
of command. Because although he is the chief of the Border 
Patrol, stationed at headquarters, he does not have any 
supervisory oversight over the chiefs.
    It would be beneficial, because I think that is where the 
chairman is trying to understand what your role is.
    Mr. De La Vina. The current structure of the U.S. Border 
Patrol works in this manner. We have the Commissioner, we have 
the Deputy Commissioner, and the Executive Associate 
Commissioner, would be Mr. Pearson, who I report to. And from 
that point, we have three regional Directors that are located 
in the field, in Dallas, in California, and in the eastern 
region in Burlington, VT.
    Our chiefs report up the chain through the regional 
Directors to Mr. Pearson. My role is much as a second-line 
supervisor, in a manner of speaking, to the chief patrol 
agents. structure.
    Mr. Mica. That is a little bit----
    Mr. Reyes. See, that is why, when you are asking him 
questions, I wanted you to understand the way the system is, in 
my opinion, broken. That is why we are trying to restructure 
the INS. Because he does not have supervisory oversight over 
the chiefs, and you are asking him if there is enough 
coordination, at ground level if there is enough--well, 
``coordination'' is about the only word I can use.
    Mr. Mica. Yes.
    Mr. Reyes. He does not have the ability to influence that. 
The regional commissioners and then Mr. Pearson. He is actually 
on a staff advisory level. So the ``Chief of the Border 
Patrol'' is kind of a misnomer.
    Mr. Mica. Is that established by agency rule, as opposed to 
law?
    Mr. Reyes. Right.
    Mr. Mica. It is?
    Mr. Reyes. It is within the agency.
    Mr. Mica. So we can call the agency in and ask for a 
restructuring on that.
    Mr. Reyes. Right.
    Mr. Mica. OK. It sounds like we have some organizational 
and structural problems that can be corrected without 
legislation.
    Mr. Reyes. Right.
    Mr. Mica. OK. Mr. Reyes, did you have questions?
    Mr. Reyes. Yes. I am interested in getting the perspective 
from both Mr. Banks and Mr. Pearson. Before I do that, I want 
to publicly thank Mr. Banks for the support he has given us. 
You and I were discussing the new post technology for the ports 
of entry, and he has been very supportive. As a result of his 
support, I think next March or April we are going to actually 
field test that new technology, which I think is going to 
really make a difference.
    In addition to that, he has been very helpful in working 
with the private sector. Because if that technology works, the 
private sector is very excited about participating in defraying 
some of the cost, because to them time is money, and money is 
being spent by the trucks waiting in long lines, waiting for 
Customs to inspect them. So I did want to thank you for that, 
Mr. Banks.
    Mr. Banks. Yes, sir.
    Mr. Reyes. My question is regarding the comments by General 
McCaffrey in terms of the port coordination. From what I am 
hearing--correct me if I am wrong--the INS is OK with having 
Customs take the lead at the ports of entry and the Border 
Patrol take the lead in between the ports of entry. I would 
like for each one of you to comment on that.
    Mr. Banks. I do not know if it is quite as clean as that, 
Congressman. But we really have, under the Border Coordination 
Initiative, one person that we jointly designate between us as 
the traffic manager. One person at the port will control those 
operations.
    Now, we each have our own missions to do. But part of this 
effort with this coordination initiative was to get a seamless 
process; one face of government to the traveling public and the 
commercial process, also a single point to work on the law 
enforcement arena. That is the reason we merged resources and 
joined forces in our intelligence centers, is to provide 
tactical intelligence.
    Mr. De La Vina is correct; intelligence is probably one of 
the things that we are missing the most. But we are starting to 
make some real progress in getting tactical intelligence that 
is good for the officers on the line. We have done it by 
merging resources; not trying to take over resources or worry 
about turf or anything like that, but simply getting together, 
one place, one unit, to work on a common issue.
    So I know that General McCaffrey is interested in having an 
overall coordinator for the Southwest border. Treasury's 
position is not necessary, that perhaps that is a redundancy, 
another level of bureaucracy.
    Can there be more done in terms of achieving effective 
coordination between the agencies? Yes. Are we on track to do 
that? Yes. Is it perfect? No. We still have a ways to go. But 
we have HIDTAs. We have built this effort at the ports, to have 
a single port management concept. We have merged intelligence 
areas. We have border liaison mechanisms.
    And adding another coordinating body in the midst of this, 
if anything, I am not sure if it is going to add what everyone 
is looking for. I think it is trying to somewhat impose a 
military approach on a law enforcement issue.
    Mr. Reyes. So if an individual like Mr. Rodriguez in the 
previous panel goes to any port of entry, any of the 39 ports 
of entry, and asks, ``Who is in charge?'' everyone at that port 
of entry can tell him?
    Mr. Banks. At least for that traffic issue. Now, 
frequently, he is going to go for a migrant issue, or an 
undocumented crossing issue. If he does, for the most part, he 
is going to go to the head of the Immigration Service at that 
port.
    Mr. Reyes. So he will ask, ``Who is in charge?''
    Mr. Banks. Yes, sir.
    Mr. Reyes. And somebody will say, ``Well, that depends''?
    Mr. Banks. Yes, sir--No.
    Mr. Reyes. You see, that is the problem. I have been at the 
ports of entry with General McCaffrey, where he has asked that 
question and we have gotten from 6 to 30 different answers, in 
terms of who has the lead. It depends on what issue.
    I think that is what feeds the frustration, and that is 
what we heard earlier in the previous panel. Because I think 
that if there had been an arrangement worked out by INS and 
Customs and Agriculture and whoever else is at the port of 
entry, we would not continue to hear the same issues that came 
up in the previous panel, that came up with General McCaffrey, 
and that, frankly, come up as you visit the border with the 
delegations.
    What we are trying to do is to decide what needs to be 
done. part of the frustration is the fact that we are being 
told at times it is being handled, but when we go back out 
there and ask the same question, we get the same answers. That 
tells us that it is not any better than it was, you know, 5 
years ago.
    Let me hear from Mr. Pearson, and then you can comment.
    Mr. Pearson. Well, as you know, Congressman, I spent over 
25 years in the Army, so I understand the issue of unity of 
command and unity of effort. What we are trying to do here is 
the unity of effort.
    To ask somebody to walk in and say, ``Who is in charge'' is 
for the most part immaterial. It is, ``What is the issue?'' In 
much the same way, somebody walks into a police station and 
says, ``Hey, this happened.'' Well, ``OK, you are in the city 
police, but it happened in the county, so we need to refer to 
them.'' Or it is county, city, or State or Federal.
    When somebody comes in and has an issue, it does not matter 
who they talk to. It gets put in the right channels right away. 
That is what the port authority, the Border Coordination 
Initiative, is all about. There is a team that runs that port, 
and that team focuses all the efforts together. So there is no 
duplication where it is not necessary, and there are no gaps in 
it. It really should not matter when somebody walks in and 
says, ``Who is in charge?'' It is, ``What is the issue? And we 
will make sure the right people are handling it.''
    Mr. Reyes. Except when somebody like Lieutenant Rodriguez 
goes to a port of entry and says, ``I have a load--or a group 
or whatever the issue is--coming in. And I need to talk to an 
individual to get that authorized or OKed.'' And when they say, 
``Well, it depends what the issue is,'' the issue is coming 
into the port of entry, he needs to get it addressed. If the 
issue is narcotics, it goes to the Customs, correct?
    Mr. Pearson. That is correct.
    Mr. Reyes. But then you also have to consider what kind of 
documents those snitches have, or those informants. So 
ultimately, what happens--and I am telling you this from what I 
have heard personally and what at times I have experienced--the 
issue becomes, ``Who has overriding authority?''
    If you walk into a McDonald's today, and there is a dispute 
about an order, and there is a shift supervisor, there is only 
one manager of that McDonald's. There is only one person that 
can literally make the decision, ``Yes, we will give it to you 
free,'' or ``No, we are going to charge you,'' or ``You can 
take a hike,'' whatever that is.
    The frustration is that there is not one person at a port 
of entry today that has that kind of authority or that kind of 
flexibility. I have been with General McCaffrey when he has 
been told about issues just like that; that in varying degrees 
there is an issue of enforcement or an issue of inspection, an 
issue of narcotics. The best scenario is that they have a mini-
conference of the three port directors: Agriculture, INS, and 
Customs. In some cases, there is disagreement, and they have to 
bump it up their chains of command; which means, ultimately, 
that it becomes a bureaucratic nightmare.
    I mention this so that you understand the frustration that 
we hear. I have an advantage over colleagues like the chairman, 
because I worked in that agency, and I understand exactly what 
Lieutenant Rodriguez means when he says he has to step in and 
referee from a local level a turf issue or a disagreement on 
that level.
    That is where I think we need to come to some kind of 
understanding, or some kind of an agreement. That is why I 
think it is important that we continue to pursue those kinds of 
things, both at the ports of entry and in between the ports of 
entry.
    I do not know if you have any comments on that. I just 
wanted to make sure that everybody understood what the issue 
is.
    Mr. Banks. I think we do have an idea on the issue. Go into 
any major city in the United States, in their law enforcement, 
and you have State police, city police, county police, and 
sheriffs' departments. It is similar type situations on this. 
Most of the work that gets done is through cooperation.
    One of the things that would be of concern from Justice or 
an Immigration perspective: If there is one person in charge of 
drugs, then what happens to those INS resources? Will they be 
committed to drugs, or are they going to be committed to the 
immigration issues? You do not have somebody trying to dictate 
that and diverting those resources. Instead, we work it out in 
a cooperative way.
    Many times, we support each other. In other words, if there 
are not enough resources to go around, we either put in 
additional resources, or the Immigration does, in order to 
solve a particular problem. So in some ways, the cooperation 
approach, this unity of effort, is a solution to a lot of the 
issues out there.
    Because a lot of these turf wars, what they are fighting 
for is not turf; they are fighting for resources. They are 
fighting for enough agents to be able to work an investigation. 
They are fighting for enough people to man those lines and to 
search those trucks. It is almost a turf battle for resources 
on a particular issue, more than it is a battle amongst 
agencies for who controls what. There is so much work out 
there, none of us can control it.
    Mr. Reyes. True, but the bottom line is, we still keep 
hearing----
    Mr. Banks. Yes, sir.
    Mr. Reyes [continuing]. People like General McCaffrey 
talking about getting one coordinator, one person, where the 
buck stops at that desk or at that office and who says either, 
``Yes, you can come in, Lieutenant Rodriguez, with your case,'' 
or ``No, because of `X,' `Y,' `Z'.''
    And that, I guess, takes it from a perspective of 
constructive criticism.
    Mr. Banks. Yes, sir.
    Mr. Reyes. Can I ask?
    Mr. Mica. Go ahead.
    Mr. Reyes. I want to just switch gears, and speak to 
General Anderson. Because every year here with the Department 
of Defense authorization we go through a yearly argument of 
``Put military on the border.'' I would like to get your 
perspective on whether the military has the resources, the 
inclination, the interest, of replacing or supplementing the 
Customs and the Border Patrol and DEA and everybody else, by 
taking a first-line presence on our borders.
    General Anderson. I think that is a bad idea. We are 
trained to do other things, quite frankly. There are agencies 
already in place that can operate within our national laws. You 
will have to change our laws to allow us to operate to our 
fullest capacity.
    There is enough work around the world in the engagement 
strategy that ties up those military resources. The way we are 
organized now, and the capabilities we bring, the idea is those 
capabilities are temporary in nature. That would allow then the 
law enforcement agencies to not only use the resource, to learn 
how to use it, and then possibly budget for it in the outer 
years. I think we are doing that well. We do not meet all the 
support requirements that come in; nor have we over our 10 
years.
    Mr. Reyes. Mr. Banks.
    Mr. Banks. Congressman Reyes, one thing I would suggest, 
however, is the National Guard, working under the auspices of 
the Governors, is invaluable. You will see a lot of military 
uniforms out there working in the cargo lots and working at the 
ports.
    Mr. Reyes. Right. Well, the issue is not----
    Mr. Banks. Understood.
    Mr. Reyes. You know, and the issue is not whether the 
military can support enforcement agencies. Of course they can. 
The biggest issue is--and we have had proposals here from 
putting 10,000 soldiers on the border--the frustration of the 
narcotics that are coming in and the impact that it is having 
on our streets in the country.
    Having worked in that area, I wholeheartedly agree that the 
National Guard, JTF-6, do an incredible job in giving you the 
resources to unload trucks. I think you divided it into 
operations, engineering, and the third one was general support.
    Now, all of those things are things that are very 
beneficial. But my question was directed toward putting 
actually armed soldiers on our border. I think it is a very bad 
idea, and I wanted to make sure that I was not speaking just 
from experience, but from hearing it also from the perspective 
of somebody that actually--and in this case, General Anderson--
who is in charge of JTF-6 and in charge of the military 
resources. So I appreciate it.
    Mr. Mica. Mr. Fiano.
    Mr. Fiano. Congressman, may I respond to the issue on the 
coordination? As far as DEA is concerned, while on the surface 
a coordinator looks like a practical solution, as an 
investigative agency I would have some concerns about having 
either a Customs port director or a Border Patrol port director 
make a decision as, Congressman, you brought up, if Lieutenant 
Rodriguez had a controlled delivery.
    I would hope that Lieutenant Rodriguez could go to either 
the Customs office closest to him, the FBI office, the DEA 
office, regarding the controlled delivery. That way, it could 
be coordinated. Because those controlled deliveries and 
investigations like those usually target one of the larger drug 
distribution networks within the United States. It may affect, 
negatively impact, either a foreign investigation that DEA, 
Customs, the FBI might be working jointly at a special 
operations division, such as ``Operation Impunity.'' It may 
affect one of the domestic cases.
    I would like to see Lieutenant Rodriguez go to the DEA, the 
FBI, the Customs Office, tell the Customs agent or an FBI 
agent, ``I have this controlled delivery, it is targeting the 
Rich Fiano organization,'' and then it will ultimately get to 
the people who can coordinate that, who are sitting together, 
FBI, Customs, and DEA. That way, we can pursue a larger 
investigation, and not jeopardize anything that anybody is 
doing.
    Mr. Reyes. I think under ideal circumstances, that is 
really the way it works, and it should work. But as you know, 
sometimes these cases take a life of their own, and there is no 
way that you can channel it. That is where it becomes critical 
that there be one person, one contact point, that can make a 
very critical decision. Because in some cases, a whole case can 
turn on the ability of getting an individual cleared to go 
through those ports of entry.
    Mr. Mica. Well, unfortunately, we are running short on time 
here. I am going to ask unanimous consent that we keep the 
record open for at least 3 weeks. Without objection, so 
ordered.
    I will tell our witnesses we have a substantial number of 
additional questions we would like answered for the record, 
which we will be directing to each of the agencies and 
witnesses here.
    We do want to also thank you for your cooperation, whether 
it is the Joint Task Force, DEA, Customs, INS, the Department 
of Justice, and Border Patrol. As you can tell, there is a 
certain degree of frustration of Members of Congress. We want 
this to work. We need your cooperation. Some things that the 
agencies can do a better job on in working together, we think 
we can leave it to you. But we need your cooperation.
    We do have an oversight responsibility and function. We 
will continue to do that. We have poured incredible resources 
into this effort. I think the Members of Congress are willing 
to fund and support, but again, the results are important, and 
cooperation is important. So we solicit your continued efforts 
and cooperation to make this a success.
    There being no further business to come before this 
subcommittee this afternoon, this meeting is adjourned.
    [Whereupon, at 2:12 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] T6078.095

[GRAPHIC] [TIFF OMITTED] T6078.096

[GRAPHIC] [TIFF OMITTED] T6078.097

[GRAPHIC] [TIFF OMITTED] T6078.098

[GRAPHIC] [TIFF OMITTED] T6078.099

[GRAPHIC] [TIFF OMITTED] T6078.100

[GRAPHIC] [TIFF OMITTED] T6078.101

[GRAPHIC] [TIFF OMITTED] T6078.102

[GRAPHIC] [TIFF OMITTED] T6078.103

[GRAPHIC] [TIFF OMITTED] T6078.104

[GRAPHIC] [TIFF OMITTED] T6078.105

[GRAPHIC] [TIFF OMITTED] T6078.106

[GRAPHIC] [TIFF OMITTED] T6078.107

[GRAPHIC] [TIFF OMITTED] T6078.108

[GRAPHIC] [TIFF OMITTED] T6078.109

[GRAPHIC] [TIFF OMITTED] T6078.110

[GRAPHIC] [TIFF OMITTED] T6078.111

[GRAPHIC] [TIFF OMITTED] T6078.112

[GRAPHIC] [TIFF OMITTED] T6078.113

[GRAPHIC] [TIFF OMITTED] T6078.114

[GRAPHIC] [TIFF OMITTED] T6078.115

[GRAPHIC] [TIFF OMITTED] T6078.116

[GRAPHIC] [TIFF OMITTED] T6078.117

[GRAPHIC] [TIFF OMITTED] T6078.118

[GRAPHIC] [TIFF OMITTED] T6078.119

[GRAPHIC] [TIFF OMITTED] T6078.120

[GRAPHIC] [TIFF OMITTED] T6078.121

[GRAPHIC] [TIFF OMITTED] T6078.122

[GRAPHIC] [TIFF OMITTED] T6078.123

[GRAPHIC] [TIFF OMITTED] T6078.124

[GRAPHIC] [TIFF OMITTED] T6078.125

[GRAPHIC] [TIFF OMITTED] T6078.126

[GRAPHIC] [TIFF OMITTED] T6078.127

[GRAPHIC] [TIFF OMITTED] T6078.128

[GRAPHIC] [TIFF OMITTED] T6078.129

[GRAPHIC] [TIFF OMITTED] T6078.130

[GRAPHIC] [TIFF OMITTED] T6078.131

[GRAPHIC] [TIFF OMITTED] T6078.132

[GRAPHIC] [TIFF OMITTED] T6078.133

[GRAPHIC] [TIFF OMITTED] T6078.134

[GRAPHIC] [TIFF OMITTED] T6078.135

[GRAPHIC] [TIFF OMITTED] T6078.136

[GRAPHIC] [TIFF OMITTED] T6078.137

[GRAPHIC] [TIFF OMITTED] T6078.138

[GRAPHIC] [TIFF OMITTED] T6078.139

[GRAPHIC] [TIFF OMITTED] T6078.140

[GRAPHIC] [TIFF OMITTED] T6078.141

[GRAPHIC] [TIFF OMITTED] T6078.142

[GRAPHIC] [TIFF OMITTED] T6078.143

[GRAPHIC] [TIFF OMITTED] T6078.144

[GRAPHIC] [TIFF OMITTED] T6078.145

[GRAPHIC] [TIFF OMITTED] T6078.146

[GRAPHIC] [TIFF OMITTED] T6078.147

[GRAPHIC] [TIFF OMITTED] T6078.148

[GRAPHIC] [TIFF OMITTED] T6078.149

                                   - 

</pre></body></html>
